                                                                            Table of Contents

                    THE LIBRARY OF CONGRESS
                  Financial Statements for Fiscal Year 2007

                            TABLE OF CONTENTS
                                                                                 PAGE

MANAGEMENT=S DISCUSSION AND ANALYSIS

    Introduction                                                                       1
    The Library of Congress and Its Mission                                            1
    Strategic Plan                                                                     1
    Brief History                                                                      1
    The Library of Congress Today                                                      3
    Overview of Financial Statements                                                   4
    Key Performance Measures                                                          10
    Major Goals and Accomplishments                                                   11
    Management Control Program, Systems, Controls and Legal Compliance                20
    Stewardship Reporting                                                             20
    Limitations of the Financial Statements                                           21

FINANCIAL STATEMENTS AND NOTES

    Consolidated Balance Sheets                                                       23
    Consolidated Statements of Net Costs                                              24
    Consolidated Statements of Changes in Net Position                                25
    Combined Statements of Budgetary Resources                                        26
    Notes to the Consolidated Financial Statements                                    27

MANAGEMENT REPORT

    Assessment of Condition of Heritage Assets                                        55
    Management Assertion on Controls for the Collections                              55

REPORT OF INDEPENDENT AUDITORS

    Results of the Library of Congress FY 2007 Financial Statements Audit             57
    Independent Auditor’s Report                                                      59
    Comments by Library of Congress Management                                        67




                                                                                            i
                                                                               Management’s Discussion and Analysis



                              THE LIBRARY OF CONGRESS
                             Management’s Discussion and Analysis
                                        Fiscal Year Ended September 30, 2007


                                                   Introduction
The Management’s Discussion and Analysis (MDA) is designed to provide a high level overview of the Library:
who we are, what we do, and how we accomplished our mission during fiscal year 2007.


                                 The Library of Congress and Its Mission
The Library of Congress, an agency in the legislative branch of the government, is the world's largest and most
comprehensive library, managing 90 collections – many of them having unique and irreplaceable items – in more
than 470 languages. It directly serves not only the Congress, but also the entire nation with the most important
commodity of our time: information.

The Library's mission is to make its resources available and useful to the Congress and the American people and to
sustain and preserve a universal collection of knowledge and creativity for future generations.


                                                  Strategic Plan
The Library has six diverse programs, staffed by more than 3,679 people. They serve the Congress with nonpartisan
analysis of legislative issues and preserve a universal record of intellectual creativity. All libraries – and especially
the Library of Congress – must deal with the greatest upheaval in the transmission of information and knowledge
since the invention of the printing press – the rapid growth of digitized multimedia communications. With the fiscal
year 2004-2008 Strategic Plan, the Library responded to this challenge with 18 program-focused goals and outcomes.
The key objectives within the plan’s goals were: serving the Congress; sustaining and preserving our collections;
implementing the Copyright Office’s reengineered processes; converting to digital talking book technology for blind
and physically handicapped persons; strengthening the digital competencies of our knowledge navigators – curators;
moving to a networked digital environment; and opening the Packard Campus for Audio-Visual Conservation,
which the Packard Humanities Institute (PHI) officially transferred to the Architect of the Capitol for the benefit of
the Library of Congress and the American people.

During fiscal year 2007, the Library’s Strategic Planning Team, consisting of the Library’s senior management and
key subject matter experts, developed and published a new Strategic Plan for fiscal years 2008-2013. The new Plan
changed from the 18 program-focused goals to five Library-wide goals – Content, Customers, Outreach,
Organization, and Workforce. The five goals will guide the Library as it continues to confront the critical tasks of
sorting and preserving the ever-expanding world of digital knowledge and information, and integrating it into the
growing body of printed works and other traditional artifactual materials. The new Strategic Plan became effective
October 1, 2007.


                                                   Brief History
At the dawn of the 19th century, the American republic was still little more than a bold experiment. Barely a decade
removed from the establishment of constitutional democracy, our lasting future as a nation was not yet assured and
our national character was only beginning to emerge.

It was in this context that the U.S. Congress created what would become one of the greatest and most distinctly
American institutions. Mindful of the link between an informed people and functional governance, the Congress in




                                                                                                                            1
Management’s Discussion and Analysis


    1800 established the Library of Congress by appropriating $5,000 to purchase a collection of 740 books and three
    maps.

    President Thomas Jefferson would make early and indelible contributions to the growing Library, signing a law in
    1802 defining the institution’s roles and functions, creating the first joint congressional committee (the Joint
    Committee on the Library) and establishing the position of Librarian of Congress.

    After the British burned the Capitol during the War of 1812, destroying the Library’s collection of some 3,000
    volumes, it was Jefferson who again would help ensure that the Library of Congress would endure as a central
    contributor to American democracy, culture and intellect. Accepting the now-retired president’s offer to
    “recommence” the Library, the Congress in 1815 purchased Jefferson’s 6,487-volume personal collection (then the
    finest in America) at a price of $23,950. It contained books in many languages and on a wide variety of topics,
    reflecting Jefferson’s belief that there was “no subject to which a Member of Congress might not have occasion to
    refer.”

    While its origins were humble, six key milestones in the Library’s early decades significantly expanded its scope
    and reach:

        •    The establishment of the Law Library in 1832 as the first department of the Library of Congress recalled
             the Library’s origins as a collection of law books to support the legislative work of the Congress. The Law
             Library remains the only source for the Congress for research and reference services in foreign,
             comparative, and international law.

        •    The Copyright Law of 1870 centralized the nation’s copyright functions in the Library and stipulated that
             two copies of every book, pamphlet, map, print, photograph, and piece of music registered for copyright in
             the United States be deposited in the Library. The law reflected Jefferson’s aspirations for the Library as a
             universal repository of knowledge.

        •   In 1886, the Congress authorized the first separate Library of Congress building to contain openly
            accessible reading rooms and exhibition space for the general public. In 1897, the Thomas Jefferson
            Building officially opened to the public.

        •   In 1902, the Congress authorized the Library to sell copies of its cataloging records inexpensively to the
            nation's libraries, thus substantially subsidizing the entire American library system.

        •   In 1914 the Congress created the Legislative Reference Service (LRS) as a separate entity within the
            Library to provide specialized services to “Congress and committees and Members thereof.” Additional
            laws enhanced its mission in 1946 and 1970, when it was renamed the Congressional Research Service.

        •   In 1931, the Congress established a program in the Library to create and supply free library materials to
            blind and physically handicapped readers throughout the country.

    In addition, Congress since the mid-1970s has statutorily created 10 programs that have further enhanced the
    Library’s national role.

        •   American Folklife Center (1976)
        •   American Television and Radio Archives (1976)
        •   National Center for the Book (1977)
        •   National Film Preservation Board (1988)
        •   National Film Preservation Foundation (1996)
        •   Cooperative Acquisitions Program Revolving Fund (1997)
        •   Sound Recording Preservation Board and Foundation (2000)
        •   Three revolving funds for fee services (2000)
        •   National Digital Information Infrastructure and Preservation Program (NDIIPP) (2000)
        •   Digital Collections and Educational Curricula Program (2005)


2
                                                                                Management’s Discussion and Analysis



One of the most recent and ambitious of these came in December 2000, when Congress tasked the Library under
Public Law 106-554 with developing a plan and leading an effort to ensure that important digital materials can be
preserved for our national information reserve. The National Digital Information Infrastructure and Preservation
Program (NDIIPP) demonstrates the foresight of the Congress in its imperative to preserve critical data that typically
exists in an unstable and transient environment.


                                       The Library of Congress Today
Today, as the Library of Congress advances further into its third century, there is still no more fitting a symbol of its
vision and aspirations than the Library’s 1897 building that bears Jefferson’s name. Constructed as a projection of
American optimism near the turn of the 20th century, the Thomas Jefferson Building is resplendent with iconography
and written inspirations that describe the Library’s past and, more importantly, guide its future.

The gilded Torch of Knowledge surmounts the building, while directly beneath on the underside of the dome is the
mural Human Understanding, embodied by a woman removing the veil of ignorance from her eyes. Below the
dome is the magnificent Main Reading Room, which was the Library’s original means of providing the information
that is critical to an informed citizenry.

As the Library of Congress extends its reach in the modern era, an information revolution is empowering not just
countries and companies, but also individuals in the farthest reaches of the globe. Our mission remains the same,
but it is more important than ever when set against a landscape of dynamism and intense international competition.

In his June 2005 testimony to Congress, Librarian of Congress James H. Billington said: “Libraries are inherently
islands of freedom and antidotes to fanaticism. They are temples of pluralism where books that contradict one
another stand peacefully side by side on the shelves, just as intellectual antagonists work peacefully next to each
other in reading rooms.”

Those words hearken back to the Library’s early days and Thomas Jefferson’s vision of a society wherein the widest
variety of information was readily available to the greatest possible number of people. “I feel … an ardent desire,”
Jefferson said, “to see knowledge so disseminated through the mass of mankind that it may, at length, reach even the
extremes of society; beggars and kings.” (Thomas Jefferson: Reply to the American Philosophical Society, 1808.)

Through its strategic plan, the Library of Congress will be accountable to the American public and their elected
representatives, and measured by the results that are achieved. We seek nothing less than to be ardent champions
furthering the cause of human understanding and wisdom.

Past, present and future, the Library of Congress endeavors to remain the preeminent repository of information on a
global scale, an inspiration to future generations, and a celebrant of achievement–-a Torch of Knowledge that
continues as a shining beacon for all the world.

The Librarian of Congress, appointed by the President with the advice and consent of the Senate, directs the Library.
The Chief Operating Officer manages the day-to-day operations through five service units and an enabling
infrastructure (see organizational chart).

The Library’s programs and activities are funded by four salaries and expenses (S&E) appropriations, which support
management of the Library, the National and Law Library Services, Copyright administration, Congressional
Research Service, and Library Services to the Blind and Physically Handicapped.




                                                                                                                            3
Management’s Discussion and Analysis




    Library Services includes the National Library Service for the Blind and Physically Handicapped (within
    Partnerships and Outreach Programs); program costs are reported under the National Library Program.

    The Office of Strategic Initiatives includes Information Technology Services; program costs are reported under the
    National Library Program and infrastructure costs are allocated.



                                         Overview of Financial Statements
    For fiscal years 2007 and 2006, the Library has prepared Consolidated Balance Sheets, Consolidated Statements of
    Net Costs, Consolidated Statements of Changes in Net Position, and Combined Statements of Budgetary Resources.

    Consolidated Balance Sheets

    The purpose of the consolidated balance sheet is to provide financial statement users with information about the
    Library’s assets, liabilities, and net position as of September 30, 2007 and 2006. In accordance with generally
    accepted accounting principles for federal government entities, the value of the Library’s collections (our largest
    asset) is not calculated and reported with a monetary value. Instead, the Library reports unit measurement, mission
    and acquisition information in the financial statement notes (see Section 2), and provides other relevant information
    about their use, preservation, security, etc. in supplemental information (see Section 3). The Library’s Net Position
    consists of: (1) the portion of the Library’s appropriations that are unexpended; and (2) the cumulative balances of
    gift, trust, revolving and reimbursable funds.




4
                                                                                Management’s Discussion and Analysis


                        (in millions)                                                               (in millions)
      Assets        FY 2007      FY 2006                   Liabilities and Net Position         FY 2007      FY 2006
Entity Assets     $     537.1 $       578.3     Liabilities Covered by Budgetary Resources     $ 1,227.9 $ 1,225.5
Non-Entity Assets     1,125.3       1,122.5     Liabilities Not Covered by Budgetary Resources       31.6          32.1
                                                Total Liabilities                                 1,259.5 $ 1,257.6
                                                Net Position                                        402.9         443.2
Total Assets        $   1,662.4 $    1,700.8    Total Liabilities and Net Position             $ 1,662.4 $ 1,700.8

The Library’s assets total $1.7 billion for fiscal year 2007 and $1.7 billion in fiscal year 2006. Entity assets
decreased by $41.2 million during fiscal year 2007. Significant changes include a decrease of $67.4 million in the
Library’s fund balance with the U.S. Treasury and an increase of $12.2 million due to unrealized gains in the
Library’s non-Treasury investment. Non-entity assets (i.e., funds held and invested for future distribution to
copyright owners) comprise 68 percent and 66 percent of all assets and total $1,125.3 million and $1,122.5 million
for fiscal years 2007 and 2006, respectively. Non-entity (custodial) assets remained relatively unchanged during
fiscal year 2007 because current year royalty receipts were about the same as prior-year royalty distributions to
Copyright owners. The Library is authorized to invest the royalty funds in U.S. Treasury securities until the funds
are distributed.

The Library’s liabilities total $1,259.5 million and $1,257.6 million for fiscal years 2007 and 2006, respectively,
with custodial and deposit account activities (i.e., funds held for future distribution to copyright owners) as the
major item. The custodial liability remained relatively unchanged during fiscal year 2007, following the same
pattern found in the non-entity assets. Other large liabilities include funds advanced from other governmental
agencies for the FEDLINK program and accounts payable for various operating expenses.

In general, the accompanying Balance Sheets do not include the acquisition and improvement costs of the Library's
buildings and grounds. By law, these buildings and grounds are under the structural and mechanical care of the
Architect of the Capitol.

Consolidated Statements of Net Costs

The purpose of the Consolidated Statements of Net Costs is to provide financial statement users with information
about the costs and earned revenues for the Library’s six programs for the fiscal years ended September 30, 2007
and 2006. In other words, the statements present the net costs of our programs – $691.8 million and $653.0 million
for the fiscal years 2007 and 2006, respectively. Net costs include allocated management support costs (e.g., human
resources, financial services, facility services). In general, the Library’s net costs increase each fiscal year because
of annual employee cost-of-living payroll adjustments.




                                                                                                                           5
Management’s Discussion and Analysis


    The net costs for each of the Library’s six programs are:

                                        Consolidated Statement of Net Costs
                                 Fiscal Year 2007 - $691.8M               Fiscal Year 2006 - $653.0M

           $450 $429.3
                           $386.70
           $400

           $350

           $300

           $250

           $200

           $150                                                         $127.7 $127.5

           $100
                                                      $45.6 $40.4                             $51.0 $59.3
            $50                        $23.9 $21.7
                                                                                                                       $14.3 $17.4
             $0
                    National Library    Law Library   Copyrigt Office     Congressioinal    Nat'l Lib Serv for Blind   Reimbursing and
                                                                         Research Service         & Pys Hand           Revolving Funds




    National Library - With net program costs of $429.3 million and $386.7 million for fiscal years 2007 and 2006,
    respectively, National Library is the Library’s largest program and is responsible for the traditional library activities
    of acquisitions, cataloging, research and reference, and preservation.

    National Library manages the following programs and services:
        Acquisitions – Each year the Library acquires more than two million new items in all formats for addition to its
        priceless collections, which are the largest and most wide-ranging of any library in the world. The collections,
        and the information they contain, are the foundation for the many services the Library provides to the Congress
        and the nation.

        Cataloging – The Library produces bibliographic records, standards, and related products for the Library as
        well as for libraries and bibliographic utilities in all fifty states and territories and many other countries.

        Research and Reference – The Library makes available to scholars and other researchers vast information
        resources, many of which are unique, covering almost all formats, subjects, and languages. The Library
        provides reference assistance to researchers and the general public, conducts field research, and promotes the
        preservation of American culture throughout the United States. The Library responds to nearly 700,000
        information requests a year from across the nation, including nearly 302,000 in person in the 20 reading rooms
        open to the public in Washington. In addition, the Library responds to more than 67,000 free interlibrary loan
        requests from across the nation and more than 29,000 requests for book loans from the Congress each year.

        On-line Access Services - The Library provides free on-line access via the Internet to its automated information
        files, which contain more than 75 million records -- to Congressional offices, Federal agencies, libraries,
        schools, and the public. Internet-based systems include three World Wide Web (WWW) services (e.g.,
        THOMAS, www.loc.gov), the Library of Congress On-line Public Access Catalog (http://catalog.loc.gov), and
        various file transfer options. These Internet-based systems now record nearly 411 million transactions a month.

        American Creativity – The Library manages the nation’s largest, most varied, and most important archival
        collection of American creativity including motion pictures, sound recordings, maps, prints, photographs,
        manuscripts, music, and folklore covering a wide range of ethnic and geographic communities.



6
                                                                               Management’s Discussion and Analysis



    Preservation – The Library manages a continuing program to preserve and extend the life of the diverse
    materials and formats in the Library's collections. The program provides a full range of prospective and
    retrospective preservation treatment for hundreds of thousands of items a year; conducts research into new
    technologies; emphasizes preservation techniques including proper environmental storage and training for
    emergency situations; conserves and preserves materials; and reformats materials to more stable media. The
    Library plays a key role in developing national and international standards that support the work of federal, state,
    and local agencies in preserving the nation's cultural heritage.

    Reading Promotion and Outreach – The Library promotes books, reading, and literacy through the Library's
    Center for the Book, its affiliated centers in 50 states and the District of Columbia, and more than 80 national
    organizational partners. The Library encourages knowledge and use of its collections through other outreach
    programs (cable TV, lectures, publications, conferences and symposia, exhibitions, poetry readings -- all
    primarily supported by private funding) and through use of the Library's home page on the World Wide Web.
    The Library also gives some 80,000 surplus books annually to qualified libraries and nonprofit educational
    institutions through its nationwide donation program. Finally, the seventh National Book Festival was held on
    September 29, 2007, on the National Mall and had more than 120 thousand attendees.

    Digital Initiatives – The Library oversees and coordinates cross-institutional digital initiatives, including the
    NDIIPP, thereby ensuring access over time to a rich body of digital content through the establishment of a
    national network of committed partners, collaborating in a digital preservation architecture with defined roles
    and responsibilities.

Law Library – The Law Library of Congress, with net program costs of $23.9 and $21.7 million for fiscal years
2007 and 2006, respectively, provides direct research service to the Congress in foreign, international, and
comparative law. In addition to Members, Committees of the Congress and the Congressional Research Service, the
Law Library provides officers of the legislative branch, Justices of the Supreme Court and other judges, members of
the Departments of Homeland Security, State and Justice, and other federal agencies with bibliographic and
informational services, background papers, comparative legal studies, legal interpretations, and translations. As its
congressional priorities permit, the Law Library makes its collections and services available to a diverse community
of users, including members of the bench and bar, educational institutions, nongovernmental libraries, legal service
organizations, the foreign diplomatic corps, international organizations, and the general public.

Copyright Office – The Copyright Office (COP), with net program costs of $45.6 and $40.4 million for fiscal years
2007 and 2006, respectively, administers the U.S. copyright laws, provides copyright policy analysis to the Congress
and executive branch agencies, actively promotes international protection for intellectual property created by U.S.
citizens, and provides public information and education on copyright. In fiscal year 2007, the COP registered more
than 526,000 claims to copyright, transferred more than one million works to the Library, recorded 11,534
documents containing more than 500,000 titles, logged more than 26 million external electronic transactions to its
Web site, and responded to nearly 305,000 in-person, telephone and e-mail requests for information. The COP
supports the Copyright Royalty Board (CRB), which is composed of three Copyright Royalty Judges and their staff,
for the purpose of (a) distributing hundreds of millions of dollars in royalties that are collected under various
compulsory license provisions of the copyright law, and (b) adjusting the royalty rates of these license provisions.
Registration fees and authorized reductions from royalty receipts fund almost half of the COP. Copies of works
received through the copyright system form the core of the Library’s immense Americana collections, which
provide the primary record of American creativity.

Congressional Research Service – The Congressional Research Service (CRS), with net program costs of $127.7
and $127.5 million for fiscal years 2007 and 2006, respectively, provides non-partisan analytical research and
information services to all Members and committees of the Congress. CRS assists all Members and committees of
Congress with its deliberations and legislative decisions by providing objective, authoritative, non-partisan, and
confidential research and analysis. Serving Congress exclusively, CRS experts work alongside the Congress at all
stages of the legislative process and provide integrated and interdisciplinary analysis and insights in all areas of
policy interest. CRS support takes the form of reports, tailored confidential memoranda, individual consultations
and briefings. In 2007, CRS delivered nearly 823,000 research responses and services.




                                                                                                                           7
Management’s Discussion and Analysis


    National Library Service for the Blind and Physically Handicapped (NLS/BPH) – The NLS/BPH, which is part
    of Library Services, manages a free national reading program for blind and physically handicapped people -
    circulating more than 26 million items a year at no cost to users. This program consists of three segments:

        1.   The Library of Congress selects and produces full-length books and magazines in braille and on recorded
             disc and cassette and contracts for the production of talking book machines. The NLS/BPH’s fiscal years
             2007 and 2006 net program costs for this segment were $51.0 and $59.3 million, respectively.

        2.   A cooperating network of 129 regional and subregional (local) libraries distribute the machines and library
             materials provided by the Library of Congress.

        3.   The U.S. Postal Service receives an appropriation to support postage-free mail for magazines, books, and
             machines, which are sent directly to readers. Reading materials (books and magazines) and playback
             machines are sent to a total readership of more than 811,000 comprised of more than 567,000 audio and
             braille readers registered individually, in addition to over 226,000 eligible individuals located in more than
             32,000 institutions.

    Revolving and Reimbursable Funds - Under the authority of 2 U.S.C. 182, the Library operates the Cooperative
    Acquisitions Program revolving fund, the revolving fund for duplication services associated with the Packard
    Campus for Audio-Visual Conservation, the revolving fund for gift shop, decimal classification, photo duplication,
    special events and public programs and related services, and the revolving fund for the Federal Library and
    Information Network (FEDLINK) program and Federal Research program. 2 U.S.C. 182 was amended in fiscal
    year 2003 to authorize the Library’s special events and programs activities under the revolving fund statute.
    Through these activities, the Library is able to further its programs dealing with the acquisition of library materials,
    reader and reference services, and support for public programs. The Library also provides reimbursable accounting
    services for five legislative agencies under cross-servicing agreements (i.e., the Congressional Budget Office, the
    Office of Compliance, the Abraham Lincoln Bicentennial Commission, and the Open World Leadership Center).

    After reflecting earned revenues of $76.6 and $68.1 million in fiscal years 2007 and 2006, respectively,
    reimbursable and revolving fund net program costs totaled $14.3 and $17.4 million, respectively. The net program
    costs were the result of the elimination of $6.7 and $7.9 million of intra-Library net revenues, $7.0 and $7.3 million
    in allocated administrative overhead, and $1.8 million and $1.8 million in imputed inter-governmental costs (e.g.,
    employee benefits) not recovered by fees charged by the revolving funds for fiscal years 2007 and 2006,
    respectively.

    General descriptions of major revolving fund activities are:

        Cooperative Acquisitions Program - The Cooperative Acquisitions Program, which is operated by the
        Library’s six overseas field offices, acquires foreign publications and research materials on behalf of
        participating institutions on a cost-recovery basis. Earned revenues were $3.0 million for 2007 and $2.9 million
        for 2006.

        Duplication Services – Duplication Services provides preservation services for the Library's audio and visual
        collections, and products are also produced for sale to the general public. Earned revenues for fiscal years 2007
        and 2006 were $0.4 million and $0.4 million, respectively, of which $0.2 million and $0.2 million were for
        intra-Library transactions, which were eliminated for both years in the consolidated statements.

        Gift Shop, Decimal Classification, Photo Duplication, Special Events and Programs and related services –
        This revolving fund provides for the operation of a gift shop or other sales of items associated with collections,
        exhibits, performances, and special events of the Library of Congress; decimal classification development
        services; the preservation and microfilming services for the Library's collections and reproduction services to
        other libraries, research institutions, government agencies, and individuals in the United States and abroad; and
        the hosting of special events and programs by corporate and non-profit entities that support the Library’s
        mission. Earned revenues were $6.1 million and $7.7 million in fiscal years 2007 and 2006, respectively, and
        intra-Library transactions of $1.1 million and $2.7 million were eliminated during consolidation.




8
                                                                              Management’s Discussion and Analysis


    The FEDLINK program and Federal Research program (FRP) – FEDLINK serves federal libraries and
    information centers as their purchasing, training and resource-sharing consortium. As the FLICC business
    subsidiary, the program provides cost effective access to an array of automated information and retrieval, print
    serials, books, electronic publications and preservation services. FEDLINK contracts with more than 130 major
    vendors to provide services to approximately 1,200 Federal offices participating in the program saving the
    offices an estimated $17.4 million in cost avoidance benefits and more than $15.4 million in vendor volume
    discounts. The Federal Research Program provides customized research services that the Library is uniquely
    able to perform as a result of its collections and the subject and language expertise of its staff. A popular FRP
    product, available on-line via the Library's home page, is the country study series of books. In fiscal years 2007
    and 2006, earned revenues were $68.9 and $60.1 million, respectively, and intra-Library transactions of $1.1
    million and $0.8 million were eliminated during consolidation.

Consolidated Statements of Changes in Net Position

The purpose of the Consolidated Statements of Changes in Net Position is to provide financial statement users with
information about the Library’s financing sources and the components of the changes in net position. The Library’s
financing sources totaled $721.1million and $664.3 million for the fiscal years ended September 30, 2007 and 2006,
respectively.

                    Consolidated Statements of Changes in Net Position
                                  Total Financing Sources


                       Fiscal Year 2007-$721.1M             Fiscal Year 2006 - $664.3M
         $600     $574.3
                           $556.0

         $500

         $400

         $300

         $200

                                                             $78.4    $72.9
         $100                           $54.1
                                                 $25.4                            $14.3   $10.0
            $0
                  Appropriations         Donations        Imputed Financing        Other Non
                      Used                                                     Exchange Revenue


The major source of the Library’s funding is from Congressional appropriations for five programs: National Library,
Law Library, Copyright Office, Congressional Research Service, and National Library Service for the Blind and
Physically Handicapped. Appropriations used during the fiscal years ended September 30, 2007 and 2006 totaled
$574.3 and $556.0 million or 80 and 84 percent for fiscal years 2007 and 2006, respectively, of all financing. Along
with appropriations made directly to the Library, other government agencies (i.e., the Architect of the Capitol, the
Office of Personnel Management [OPM], Government Printing Office) used Congressional appropriations and other
financing sources to provide support for the Library’s programs totaling an estimated $78.4 and $72.9 million
(imputed financing) for fiscal years 2007 and 2006, respectively. The support provided included structural care and
maintenance of the Library’s buildings and grounds ($46.4 million and $40.6 million), employee benefits
($30.6million and $31.6 million), acquisitions exchange services ($1.0 million and $0.6 million) and legal claims
($0.4 million and $0.1 million). Other non-exchange revenues are positive for fiscal year 2007 primarily due to the
unrealized gains on non-treasury investments ($12.2 million and $5.7 million).




                                                                                                                         9
Management’s Discussion and Analysis


     The Library’s net position decreased by $40.3 million during fiscal year 2007, primarily due to rescission of
     amounts appropriated for the National Digital Information Infrastructure and Preservation Program (NDIIPP) and
     other activities.

     Combined Statements of Budgetary Resources

     The Combined Statements of Budgetary Resources and the related disclosures provide information about how
     budgetary resources were made available, as well as their status at the end of the period. The Budgetary Resources
     section of the statement presents the total budgetary resources available to the Library. The Status of Budgetary
     Resources section of the statement presents information about the status of budgetary resources at the end of the
     period. Finally, the Outlays section presents the total outlays of the Library and relates obligations incurred to total
     outlays.

     The Library’s budgetary resources were $2.2 billion and $2.2 billion for fiscal years 2007 and 2006, respectively, of
     which $0.6 billion and $0.7 billion were from appropriated funds and $1.6 billion and $1.5 billion were from non-
     appropriated funds. Total outlays of $823.1 and $695.5 million were incurred with the outlays of appropriated funds
     ($575.5and $544.0 million) combined with outlays of the non-appropriated funds ($247.6.and $151.5 million) in
     fiscal years 2007 and 2006. The increase in outlays is largely a result of an increase of distributions of royalty fees
     during fiscal year 2007.


                                               Key Performance Measures
     Since 2003, the Library's Internet transactions have grown dramatically from 2.6 billion to 4.9 billion in fiscal year
     2007. Internet-based systems include major World Wide Web services (e.g., THOMAS, LC-Web) and various file
     transfer options. This rapid growth will almost certainly continue to increase because the Library has put on-line
     more than 13.5 million items of American history as the core of a National Digital Library and operates an
     educational Web site for families called “America’s Library.”

     Other noteworthy workloads include the following:

         •    The number of Congressional requests and services provided by CRS declined during fiscal year 2007 due
              to the introduction of the new Product Search capability on the CRS website, which allows clients to find
              the desired research products without going to the Home Page. Individual page views are not reported in
              order to be consistent with prior year data.

         •    Copyright office registrations were 5,472 greater in fiscal year 2007 than in fiscal year 2006. The number
              of copyright direct inquiries (in-person, phone, and correspondence) was 66,758 less in 2007 than in 2003.
              Decreases were principally due to the growing public use of the Web site for information on copyright law,
              the Copyright Office’s services, and Copyright Office forms and publications.

         •    The number of information requests handled by reference staff decreased by 4.59 percent from 715
              thousand in 2003 to 683 thousand in 2007, while the number of Internet transactions increased from 2.6
              billion to 4.9 billion. In addition, 1.3 million non-digital items circulated, compared to 1.375 million in
              2003. This trend reflects greater use of the Library’s on-line resources.

         •    The number of items preserved, treated, and deacidified increased by 5.9 million from 2003 to 2007
              primarily due to an increase in the number of pages reformatted or deacidified.

         •    The number of mainframe transactions decreased by 0.3 million during fiscal year 2007 primarily due to
              the migration of nearly all applications off of the mainframe platform.




10
                                                                                                                    Management’s Discussion and Analysis




                                                                    THE LIBRARY OF CONGRESS
                                           COMPARISON OF APPROPRIATIONS, STAFF, AND WORKLOAD STATISTICS
                                                                For the Fiscal years 2003, 2004, 2005, 2006, and 2007
                                                                                                                                                        CHANGE             %
                                                                     FY 2003         FY 2004         FY 2005            FY 2006         FY 2007
                                                                                                                                                       2003 – 2007       CHANGE
LIBRARY APPROPRIATIONS - ACTUAL                                     $539,469,502    $559,299,548    $584,870,304      $603,622,800      600,417,000      60,947,498           11.30%
FULL-TIME EQUIVALENT (FTE) POSITIONS (Appropriated)                        4,020           4,056           3,937             4,302            3,679            -341           -8.48%
WORKLOAD STATISTICS:
Unprocessed Library Arrearages                                        20,422,598      19,313,015      15,983,986         15,901,826      16,786,643       -3,635,955       -17.80%
CRS - Requests & Services Provided Congress                             875,197          899,284         906,445           933,430          822,697          -52,500          -6.00%
Loans of Collections to Congress                                          29,454          29,067          29,646            29,275           26,003           -3,451       -11.72%
Copyright Claims Registered                                              534,122         661,469         531,720           520,906          526,378           -7,744          -1.45%
Copyright Direct inquires (in person, phone, correspondence)             371,446         381,845         362,263           338,831          304,688          -66,758       -17.97%
Services to the Blind & Physically Handicapped (BPH) –
                                                                         766,137         766,137         793,891           793,891          811,015          44,878           5.86%
Readership
BPH - Books & Magazines; Total Circulated                             23,780,639      23,780,639      24,677,023         24,677,023      26,296,198       2,515,559           10.58%
BPH - New Braille & Audio Books & Magazines Titles                         2,764           5,486           4,275              4,275           4,338           1,574           56.95%
Print Materials Cataloged                                                269,568         294,510         312,818           346,182          363,064          93,496           34.68%
National Coordinated Cataloging Operation (NACO) - LC
                                                                          93,584         101,081         101,829           127,672          116,371          22,787           24.35%
Contribution
National Coordinated Cataloging Operation - Outside
                                                                         176,487         156,098         161,230           185,184          194,565          18,078           10.24%
Contribution
Exhibits, Displays, & Publications (Funded by Appropriations)                  23              23              27                 32              29                 6        26.09%
Regular Tours (Participants)                                             111,755         109,252         140,847           159,604          163,467          51,712           46.27%
Reference Service                                                        715,479         682,264         685,408           686,923          682,672          -32,807          -4.59%
Main Reading Room & Five Other Reading Rooms Hours Per
                                                                               65              65              65                 65              65                 0          0.00
Week
Items Circulated                                                       1,375,807       1,389,161       1,226,067          1,049,230       1,312,489          -63,318          -4.60%
Preservation Treatment - Original Format                               1,591,735       2,648,334       2,754,425          4,058,707       7,489,491       5,897,756       370.52%
Mainframe Computer Transactions                                      111,175,428     103,463,022      50,730,911           600,000          300,000    -110,875,428        -99.73%
Integrated Library System Input/Update Transactions                   96,495,434      98,312,132     103,644,698        104,087,835     117,329,910      20,834,476           21.59%
Machine Readable Cataloging (MARC) Records                            33,758,594      35,758,828      36,873,893         38,527,975      40,141,678       6,383,084           18.91%
Internet Transactions (i.e., LOCIS, MARVEL, World Wide Web,
                                                                   2,620,884,359    3,360,481,609   3,845,481,430    4,594,485,103     4,931,310,401   2,310,426,042          88.15%
and THOMAS public transactions)




                                                                Major Goals and Accomplishments

              The following section presents the significant annual goals and accomplishments for fiscal year 2007 as they relate
              to the strategic goals of the Library’s 2004-2008 strategic plan. The organizational annual goals and
              accomplishments that follow are cited under the strategic goal that is most applicable. For each annual goal, the
              responsible organization is named followed by the text of its goal and related accomplishment.

              Strategic Goal 1: Build and preserve a comprehensive collection of knowledge and creativity in all formats and
              languages for use by the Congress and other customers.

                    Annual Goal: National Library, Library Services (LS) – Activities planned will enhance both the breadth and
                    relevance of the collections.

              Accomplishments: Acquisitions operations continued throughout the year to acquire materials from areas of
              importance to Congress, primarily through our overseas offices. In addition to the acquisitions from the areas
              covered by the Cairo, Islamabad, Jakarta, Nairobi, New Delhi and Rio de Janeiro offices, examples of special items
              or collections identified and funded during the year included: geospatial data and newspapers & serials database
              from North Korea; Iranian oral history documents; access to a database of Chinese news; and items from several
              former Soviet republics.




                                                                                                                                                                         11
Management’s Discussion and Analysis


     New collections acquired include electronic and born digital research materials such as digital photographs of
     contemporary architecture and periodical databases. Special attention was paid to acquisitions based on changing
     geopolitical, cultural and technological situations, such as Chinese census data, U.S. oil and gas pipeline geographic
     information system (GIS) data, websites related to Darfur crisis, and Asian/Pacific-American resources.

     Motion Picture, Broadcasting, and Recorded Sound (MBRS) moving image and recorded sound collections were
     moved from Capitol Hill and Landover Annex storage areas to new state-of-the-art collections security and
     preservation environments in newly occupied Packard Campus for Audio-Visual Conservation in Culpeper, Virginia.
     General collections continue to be moved to the Ft. Meade, MD book storage Module 2 which also provides state-
     of-the-art collections security and preservation environment for Library materials. Construction of Modules 3 and 4
     will be dedicated to special collections and is on schedule.

     The Library continued to mount exhibitions to showcase new collections that forge strong relationships with donors
     and increase the likelihood of new deposits. In fiscal year 2007, the Interpretive Programs Office mounted five new
     exhibitions: Cartoon America; Illuminating the Word: The Saint John's Bible; MacDowell Colony; Shakespeare in
     America; and On the Cutting Edge: Contemporary Japanese Prints from the 50th College Women's Association of
     Japan Print Show.

     The Library’s Preservation Division began developing requirements for the Conservation Digital Documentation
     System. Dedicated server space is now reserved for the documentation of high value artifacts.


     Strategic Goal 2: Provide maximum access and facilitate effective use of the collections by the Congress and other
     customers.

         Annual Goal: Copyright Office (COP) – Initiate and enhance online services to the public for registrations,
         statutory license filings, and rulemakings; increase online access to historical records.

     Accomplishments: Progress on baselines is pending implementation of reengineering processes, which will be
     fully in place in early fiscal year 2008; baselines will be completed in fiscal year 2008 (for most processes) and
     fiscal year 2009 (for licensing). There was no paper records digitization in fiscal year 2007 because Congress did
     not fund it. The digitization is expected to proceed in fiscal year 2009.

         Annual Goal: LS – Planned activities will result in increased quality and effectiveness in providing access to
         the collections of the Library for our users.

     Accomplishments: Acquisitions and Bibliographic Access completed the processing of 363,064 items selected for
     the Library’s collections. To continue to improve and increase access to the Library’s collections and services via
     the Internet, the following representative sites were launched: Chronicling America, an online electronic database
     that includes historic Washington, DC newspapers; Cartographic Treasures, featuring newly scanned maps in the
     Geography & Maps division; Frontline Diplomacy, site with recently donated and digitized oral history interviews
     with former Foreign Service diplomats; U.S. Civil War photographs made by A.J. Russell, the first official war
     photographer; and a unique collection of handwritten biographies of Soviet Korean leaders.


     Strategic Goal 3: Lead, promote, and support the growth and influence of the national and international library and
     information communities.

         Annual Goal: LS – Planned activities will interpret and present the collections and facilitate both use and
         access by a broad section of patrons.

     Accomplishments: The Music Division presented thirty-seven concerts in its 2006-2007 season, many enhanced by
     pre-concert talks and displays of items from the collections relating to the concert program, including music for
     which the Library holds the original manuscript and music commissioned by the Library. The Division hosted a
     public symposium celebrating “Liszt and His World” introducing participants to the Library’s Liszt holdings.
     Library Services divisions continued to organize and contribute materials and staff expertise to the Library’s public


12
                                                                               Management’s Discussion and Analysis


programs, including “Treasure Talks.” The Science, Technology and Business (ST&B) division organized several
public programs that enhance the knowledge and understanding of LC’s broad science, technology and business
collections, presenting talks on global warming and satellite imagery by NASA scientists, organic farming and safe
food, and urban planning. ST&B also provided extensive outreach programs for math and science teachers
nationwide.

The 2007 National Book Festival, held on the National Mall on Sept. 29, was a huge success, attracting a record
crowd of more than 120,000. The Center for the Book has major responsibilities in each year’s festival,
coordinating its author program and managing the largest and busiest pavilion, the Pavilion of the States. This event
benefits the public through the promotion of reading and literacy and the Library through increased visibility of its
collections and programs.

The Interpretive Programs Office continued to share the Library’s collections through traveling exhibitions and an
extensive program of loans to cultural institutions throughout the world. Five exhibits traveled to five cities across
the U.S. in fiscal year 2007, including 26 outgoing loans for 231 objects, to 11 states and six foreign countries.
These activities broaden the world’s knowledge of the Library and its collections.

The Veterans History Project (VHP) continued to develop programs and educational outreach to highlight the
collections. Several new presentations of digitized materials were presented on the VHP website including "Asian-
Pacific Americans: Going for Broke," selected oral histories, photo, and letter collections from World War II, the
Vietnam War, and the Iraq War; "China-Burma-India: World War II's Forgotten Theater," selected oral histories,
photo, and letter collections; and the Viewer's Companion to "The War" TV series, encompassing selected narratives
of episodes in WWII.

    Annual Goal: LS – Planned activities will provide leadership to libraries and archives world-wide in such
    areas as standards, policies, guidance, etc.

Accomplishment: Acquisitions and Bibliographic Access (ABA) expanded its collaborative efforts to provide
access to and archiving of electronic government documents through work with Government Printing Office (GPO)
staff to take advantage of the Library’s Electronic Resources Management System (ERMS). Library Services staff
explored with GPO how to resolve issues regarding broken URLs (Uniform Resource Locators)/PURLs (Persistent
Uniform Resource Locators)/Handles and how to update them to assure access to the government documents stored
on remote databases. Staff also explored how the Library might offer international partners data sets of
bibliographic records loaded in the ERMS. These activities have furthered our collaborative efforts.

Library Services engages in cutting edge digital standards prototyping of document systems. The website, Library
of Congress Presents and the Veterans History Project offer multiple media types and complex document challenges.
METS (Metadata Encoding and Description Schema), MODS (Metadata Object Description Schema) and other new
standards are incorporated into the prototype. Working with an international committee sponsored by the Online
Catalog Library Center and the Research Libraries Group, the Network Development and MARC Standards Office,
participated in the development of PREMIS (Preservation Metadata: Implementation Strategies), a core set of
technical preservation data elements for digital objects of all media types. The standards and implementation
components of the eJournal scanning project, new journal scanning for electronic storage and access, is a joint effort
of the Law Library of Congress, the Library’s Office of Strategic Initiatives and Preservation Reformatting.


Strategic Goal 4: Expand, manage, and communicate Library of Congress digital goals and strategies.

    Annual Goal: Office of Strategic Initiatives (OSI) – Enable creation and intake of sustainable digital content.

Accomplishment: Through use of current and developing technologies and expertise, OSI worked with Library
service units and external partnerships to enable the significant growth of the Library's digital content, both born
digital and converted.




                                                                                                                         13
Management’s Discussion and Analysis


     Strategic Goal 5: Manage and sustain digital content.

         Annual Goal: OSI – Increase usage and seamless access to digital content and services.

     Accomplishment: The Library, through its web presence, now serves growing online general public and education-
     focused communities, warranting innovative virtual content and service delivery approaches and mechanisms.


     Strategic Goal 6: Provide high-quality and timely legal research, analysis, and legal reference services to the
     Congress, the executive branch agencies, courts, the legal community, and other customers.

         Annual Goal: Law Library (LAW) -- To improve legal research, analysis, and reference services to Congress
         and other clients.

     Accomplishment: The Law Library of Congress responds to all Congressional requests for research and to public
     reference inquiries within stated deadlines. Exceeded the goal by meeting deadlines 100% of the time when
     responding to Congressional and other customer requests for reports, studies, opinions, legal briefs and legal
     research and reference inquiries, including more than 634 legal research reports, special studies, and memoranda
     written in response to congressional inquiries. Completed a major user interface and content revision to the Law
     Library public website, including access to approximately 77,000 volumes of congressional hearings organized by
     subject. Web casts were also added to the Law Library public website for the first time. Law Library staff assisted
     members of Congress and congressional committees in researching legislative issues, particularly in the areas of
     children's rights, habeas corpus rights, immigration and environmental law. The Law Library's World Law Bulletin
     provided members of Congress with 854 articles focused on timely and developing global legal issues. The Law
     Library's special collections on Terrorism, Aviation Safety and War Powers were updated and maintained.


     Strategic Goal 7: Acquire, secure, maintain, preserve, and make accessible a comprehensive legal collection, in
     both analog and digital formats, for use by the Congress, executive branch agencies, courts, the legal community,
     and other customers.

         Annual Goal: LAW – Ensure that the Law Library collections are developed, maintained, and preserved to
         maximize its customers' ability to use materials for research and analysis. Ensure that collection security
         provides an acceptable level of protection against theft, mutilation, or physical destruction.

     Accomplishment: Collection specialists worked with legal specialists to assure acquisition of primary legal
     materials and to address critical regions and languages in response to Congressional interests. Issued contracts to
     process, preserve and shelve collection material, avoiding new arrearages. Using contract and government resources,
     processed all new receipts within five days of receipt. Inventoried and shipped on average 250 volumes a day to off-
     site storage facility at Fort Meade. Enhanced digital recording security equipment in the Law Library Reading Room.
     The Law Library's collections fall under the Library of Congress collection security standards, and these standards
     are implemented accordingly.


     Strategic Goal 8: Expand and enhance the Global Legal Information Network (GLIN).

         Annual Goal: LAW – As the basis for the Law Library’s digital future, expand and enhance the Global Legal
         Information Network (GLIN) by increasing membership and by expanding the system and its capabilities.

     Accomplishment: Expanded content of the GLIN database to include over 1,000 United States laws, court
     decisions, and legislative records and approximately 30,000 retrospective laws from Latin American countries.
     Efforts to increase membership to incorporate content from additional jurisdictions resulted in agreements with four
     new countries.




14
                                                                               Management’s Discussion and Analysis


Strategic Goal 9: Carry out the statutory mission of the Copyright Office to administer copyright and related laws
embodied in Title 17 to provide benefit to the nation.

    Annual Goal: COP – Set optimal processing times and maintain or reduce current processing time to meet the
    optimal times.

Accomplishments: The Office has met many processing targets, and is making positive progress on many of the
others. The two most crucial times were still some distance from the targets. Copyright anticipated processing
times would be further affected by staff moving back to the Madison Building and by reengineering implementation
startup issues. The Office developed contingency plans to address the impact and expects to adjust its processing
capability in fiscal year 2008 to recover from the affects of the implementation. The average for the entire year to
issue a certificate: 82 days (target was 60). The average for the entire year to record a document: 44 days (target
was 30).

    Annual Goal: COP – Increase the acquisition of all types of works, through registration and voluntary deposit,
    including works created in digital form in a variety of formats; broaden publishers' understanding of mandatory
    deposit provisions and their obligations under those provisions.

Accomplishment: IT system development is progressing, publisher education initiatives are on track, and the
online acquisitions baseline is to be determined after system implementation.

    Annual Goal: COP – Implement reengineered business processes to deliver public services more effectively
    and efficiently.

Accomplishment: Started four planned processes; two more are scheduled to start in early fiscal year 2008 and one
is delayed to fiscal year 2009 due to significant regulatory changes. The Office is in a problem-solving phase to
address IT related dependencies that have an impact on processing time.

    Annual Goal: COP – Support key business processes with new information technology systems infrastructure
    to deliver public services more effectively and efficiently.

Accomplishments: The Office implemented the Receive Mail, Maintain Accounts, Register Claim, and Answer
Request modules; significant elements of Register Claim, such as group registrations, are taking longer than
originally planned. Bottlenecks and bugs in the new system are slowing productivity and requiring remediation.
Record Document and Acquire Deposit should be implemented in the first quarter of fiscal year 2008; licensing
processes will probably be delayed to fiscal year 2009 due to significant regulatory changes.

    Annual Goal: COP – Support key business processes with reconfigured or new facilities to deliver public
    services more effectively and efficiently.

Accomplishments: Construction and moves proceeded on or ahead of schedule. Renovated spaces met needs of
new processes and organization. Resolved unexpected space needs successfully to accommodate unfinished
business from old systems.


Strategic Goal 10: Formulate and provide expert advice to the Congress, executive branch agencies, courts, and
international entities in the furtherance of maintaining a strong and effective national and international copyright
system.

    Annual Goal: COP – Provide timely, quality service to Congress, the executive branch, and the courts to
    address current and emerging challenges to copyright policy and law, especially relating to (1) digital
    technology and other issues, and (2) protection of copyrighted works internationally.

Accomplishments: Provided testimony and advice on several visible issues: orphan works legislation, public
performance right in sound recordings, and music licensing reform; provided input on twelve court cases; worked on
several regulations, including those related to fees and the triennial section 1201 rulemaking; advised the U.S. Trade


                                                                                                                         15
Management’s Discussion and Analysis


     Representative on a number of international issues; participated in twelve important U.S. delegations on intellectual
     property. Assistance promoted protection of creative works domestically and internationally.


     Strategic Goal 11: Formulate and provide expert advice to the Congress, executive branch agencies, courts, and
     international entities in the furtherance of maintaining a strong and effective national and international copyright
     system.

         Annual Goal: COP – Reach current and new audiences, through a broad range of information media, with
         copyright information and a message about the importance of copyright principles as a means of promoting
         creativity and protecting the rights of creators.

     Accomplishments: Provided effective outreach at meetings, symposia, conferences; special copyright programs in
     California, New York, and Nashville; other conference and symposium outreach in Russia, England, Egypt, and
     several in the United States; video conferences to El Salvador, Israel, Jordan, and other countries; International
     Copyright Institute with 20 guests from developing countries; public roundtable concerning proposed World
     Intellectual Property Organization (WIPO) Treaty for Protection of Broadcasting Organizations; content creation
     and posting of copyright web pages for students (aged 11-13) and teachers entitled "Taking the Mystery Out of
     Copyright" which resulted in many positive comments from bloggers; and hosted an official of the National
     Copyright Administration of China as a visiting scholar.


     Strategic Goal 12: Carry out the statutory mission of the Congressional Research Service to assist the Congress as
     it undertakes its legislative responsibilities by providing multidisciplinary, nonpartisan, confidential, timely, and
     objective analysis of public policy problems and their possible solutions.

         Annual Goal: Congressional Research Service (CRS) -- Contribute to an informed national legislature with
         timely, objective, and nonpartisan expertise across all active policy areas so that the Congress can make policies
         that best meet the needs of the nation.

     Accomplishments: CRS supported Congress by establishing and maintaining a research agenda directly aligned to
     congressional policy-making needs. To support the policy issues on the research agenda, CRS developed and
     maintained research products and improved interdisciplinary collaboration. Through management initiatives, CRS
     is making progress in addressing concerns about the consistency in the quality of CRS research support for Congress.

         Annual Goal: CRS – Best serve the Congress' legislative needs by organizing functions and activities, and
         allocating resources to optimize economy, efficiency, and effectiveness.

     Accomplishments: CRS conducted ongoing outreach to inform Members and staff about the distinctive mission of
     CRS, the services CRS provides, and ways to use CRS services most efficiently and effectively. Following a
     systematic review, CRS improved management of a complex project for introducing a CRS research product format
     and underlying authoring and publishing processes. To improve the quality and effectiveness of CRS services to
     Congress, CRS began implementing significant changes to management positions.


     Strategic Goal 13: Ensure that a high-quality, responsive, and free national reading program is available to the
     nation’s blind and physically handicapped people.

         Annual Goal: National Library Service for the Blind and Physically Handicapped (NLS/BPH) – Provide high
         quality services, distribute reading materials and equipment to patrons while maintaining the program’s mission
         and integrity.

     Accomplishment: NLS produced 2,205 analog books during the year. Cassette player production ceased as NLS
     became fully-focused on producing and distributing digital talking books (DTBs) and players. NLS will continue to
     support the use of cassette players beyond 2012 and has purchased spare parts to keep existing players in service.




16
                                                                                 Management’s Discussion and Analysis


Through program policies, NLS continued to support and encourage training, professional development, diversity
and recruitment efforts to ensure a competent, skilled and knowledgeable workforce.

    Annual Goal: NLS/BPH -- Design and provide an array of services, content, and equipment through existing
    and new digital technology.

Accomplishment: The Web Braille service expanded during the year, with 831 additional new Braille books, 302
music scores and 496 new patrons. NLS produced 2,205 new DTB titles and 1,600 analog books were converted to
DTB format. Work continues as titles become available. The digital cartridge contract met its target date with
procurement initiated in June 2007 and award anticipated shortly. Mailing container molds have been procured and
are in process.


Strategic Goal 14: Enhance the management and utilization of the Library’s Revolving and Reimbursable funds.

    Annual Goal: The Office of the Chief Financial Officer (OCFO) – Manage and utilize revolving and
    reimbursable funds not intended to generate profits in an efficient and cost effective manner – to assist service
    units that operate revolving funds or receive reimbursable funds to identify and develop business plans that will
    maximize the potential to generate profits and to cover all costs associated with the program.

Accomplishment: OCFO reviewed on average two business plans each fiscal year, for a total of six business plans
reviewed during the period fiscal years 2005 to 2007. In reviewing the business plans, OCFO (1) assessed the
nature and completeness of the factors management used in planning the operations of the fund and (2) identified
strengths of and improvements to the scope of the business plans. OCFO also monitored the revolving and
reimbursable funds for cumulative results and status of funds.


Strategic Goal 15: Manage Human Capital so the Library is able to attract and maintain an outstanding workforce
with the skills, resources, and dedication to deliver a range of high-quality, cutting-edge services, in all the Library’s
program and support areas.

    Annual Goal: Human Resource Services (HRS) – The Library's staff have the knowledge, skills, abilities and
    other characteristics needed to serve the Congress and other customers now and in the future.

Accomplishment: Met or exceeded all targets associated with this goal by providing high quality classification,
position management and reorganization consultation services to Library management and staff. In addition,
continuously provided timely initial referrals and supplemental lists to selecting officials and conducted job analyses
to prepare well-defined job descriptions, vacancy announcements, and interview questions.

    Annual Goal: HRS -- Provide responsive, efficient, and effective human resources services - continuously
    improve human resources processes to better serve and support the Library.

Accomplishments: Met or exceeded all annual performance targets by providing accurate and timely classification,
position management, staffing, and recruitment services. Provided effective and efficient labor-management
relations, employee relations and performance management services. Successfully administered full range of HRS
programs including the Employee Assistance Program, Library=s Leave Program, Time and Attendance Program,
and the Reduction-In-Force Program. HRS directed the Library=s efforts to convert to OPM=s Electronic Official
Personnel Folder (eOPF) system. Successfully reduced the average processing time of personnel actions to well
under 10 business days of receipt.

    Annual Goal: COP -- Support key business processes with redesigned organization and human capital
    initiatives to deliver public services more effectively and efficiently.

Accomplishment: The Office approved and implemented its new organization, completed its overall human capital
plan for 2008-2013, and developed training plans.




                                                                                                                             17
Management’s Discussion and Analysis



     Strategic Goal 16: Create an environment that supports delivery of superior service to the Congress and the
     American people through effective communication and management of business and supporting processes and
     financial resources, and that provides a safe and healthy workplace.

         Annual Goal: Integrated Support Services (ISS) – Implement the fiscal year 2007 Facility Project Plan,
         including support for return of the Copyright Office to Capitol Hill and move of Motion Picture Broadcasting
         and Recorded Sound Division staff to the Packard Campus for Audio-Visual Conservation in Culpeper,
         Virginia.

     Accomplishment: ISS improved the functionality, safety, accessibility, and efficiency of Library space in fiscal
     year 2007 by completing 26 major design and construction projects listed on the Facility Services Fiscal 2007
     Facility Projects Plan, including provision of its full range of services to support completion, occupancy, and
     operation of the Library’s Packard Campus for Audio-Visual Conservation in Culpeper, Virginia. Support included
     completion of furnishing reviews, procurement of furniture and furnishings, hiring of a full-time Facility Specialist
     for the facility, arrangement for provision of health services to the Packard Campus for Audio-Visual Conservation
     staff by local providers, disposition of more than 150 pieces of excess and surplus furniture and equipment located
     and WPAFB in Dayton, Ohio, implementation of mail and transportation services, development of the mandatory
     written hazard communication program, and ensuring the provision of environmental and industrial hygiene support
     services to assist the Center in meeting EPA and OSHA regulatory requirements. The work affected 177,934 square
     feet of space and 683 Library staff members. An additional 26 major projects were in progress at the close of the
     year. The largest of these was support of the Copyright Office’s Business Process reengineering initiative.
     Renovation (except punch list items) off 144,000 square feet of Copyright Office space in the Madison Building was
     completed, including installation of 530 new work stations and relocation of the bulk of Copyright office staff in the
     new spaces. The work was accomplished efficiently and effectively, with no interruption in Copyright Office
     services, or service to the public.

         Annual Goal: ISS – Support disease prevention and emergency readiness by administering a minimum of
         2,000 flu vaccinations for the 2007 flu season; identifying, training, and equipping five Library Community
         Emergency Response Teams (CERT); and inspecting, testing, and re-certifying all Automatic External
         Defibrillators (AED) machines located in off-site Library facilities.

     Accomplishments: ISS administered 2,064 flu shots administered for 2007 flu season; trained 5 Community
     Emergency Response Teams trained; and checked and recertified all off-site AEDs (Automatic External
     Defibrillators).

         Annual Goal: ISS – Track and report quarterly to service and support units the number of lost-time mishaps,
         with an aim to maintain agency-wide lost-time rate at or below 0.9.

     Accomplishment: ISS tracked the Library’s lost-time injury rate for fiscal year 2007 and reported that it was 0.71
     injuries per 200,000 hours worked, well below the federal average of 1.86 cases per 200,000 hours worked.

         Annual Goal: ISS – Track and report monthly on the number of safety training courses offered and
         participants.

     Accomplishment: ISS supported and enhanced the safety, health, and efficiency of the Library's staff during fiscal
     year 2007 by providing mandatory safety training to meet OSHA and other regulatory requirements. Safety training
     was provided to 426 Library staff members via 228 training sessions.

         Annual Goal: ISS – Develop system requirements by September 30, 2007, for replacement of fixed asset
         tracking system to support all service and support units, and account annually for the Library's received
         property valued over $25,000.

     Accomplishment: ISS developed a detailed draft document of Functional Technical Requirements for replacement
     of the current automated fixed asset tracking system.




18
                                                                             Management’s Discussion and Analysis


    Annual Goal: Office of the Librarian (LIBN/O) – Provide timely award of contracts, grants, funded
    cooperative agreements, awards, and fellowships.

Accomplishment: The office of Grants and Contracts Management awarded 4,075 contracts in the amount of
$148,761,278; 22 grants and cooperative agreements in the amount of $11,725,199; and 42 awards and fellowships
in the amount of $1,710,730.

    Annual Goal: LIBN/O -- Provide timely and effective legal support and advice for the Library's initiatives
    within time frames established by clients.

Accomplishment: The Office of the General Counsel provided timely and effective legal support and advice for the
Library’s initiatives within time frames established by clients. This included: reviewing contracts, cooperative
agreements and gift instruments for legal sufficiency; drafting contracts, agreements, legislation, regulations,
recommended final agency decisions, and other legal documents; preparing formal and informal legal opinions on
compliance with applicable statutes and regulations; preparing and submitting court pleadings, discovery materials,
motions, and briefs in accordance with established court schedules; and offering legal counsel on optimal
approaches for conducting Library initiatives.


Strategic Goal 17: Manage and sustain mission-critical IT programs.

    Annual Goal: Office of Strategic Initiatives (OSI) -- Maintain, expand, and adopt technology infrastructure to
    support mission performance and enable information stewardship.

Accomplishment: Building on the foundation of the Library's current information technology services, OSI
provided future-oriented, flexible, scalable, and to the maximum extent feasible, interoperable technology
infrastructure for sustainable digital content management and service delivery.


Strategic Goal 18: Provide effective security and emergency planning for the Library's staff and visitors,
collections, facilities, and other assets.

    Annual Goal: Office of Security and Emergency Preparedness (OSEP) -- Complete perimeter security
    requirements around the James Madison Building.

Accomplishment: Completed the installation of retractable bollards, barriers, and police shelters in accordance
with the Library's Security Enhancement Implementation Plan.

    Annual Goal: OSEP – Ensure that the physical security controls in place are providing effective security for
    the Library's collections.

Accomplishment: Implemented the Congressionally approved Collections Security Plan, and enhanced and
continually updated the plan through the Collections Security Oversight Committee.




                                                                                                                      19
Management’s Discussion and Analysis



                Management Control Program, Systems, Controls and Legal Compliance

     The Library has a management control program (MCP) that requires annual risk (vulnerability) assessments and
     periodic detailed reviews of internal controls based on the results of the vulnerability assessments. The MCP is
     designed to ensure that: (1) obligations and costs comply with applicable law; (2) assets are safeguarded against
     waste, loss, unauthorized use or misappropriation; (3) revenues and expenditures are properly accounted; and (4)
     program activities are carried out in the most efficient, effective, and economical manner possible.

     During fiscal year 2007, Library staff performed vulnerability assessments on all of the 207 identified financial and
     non-financial modules and assigned, based on an established scoring system, a high, medium or low risk to the
     modules. Then, based on risk and scheduling, Library staff performed 40 detailed control reviews in fiscal year
     2007 to examine the controls in place in the selected modules. Plans to correct any deficiencies in controls were
     derived based on the examination results and will be tracked at an agency level by program officials until the
     deficiencies are resolved.

     The implementation and regular testing of controls allows for Library management to assert that these controls
     provide reasonable assurance that the foregoing objectives are met. This testing is performed on the central
     financial and reporting systems, along with the subsidiary and program systems and the external financial interfaces
     used by the Library. The Library has continued to enhance the central financial system that was implemented in
     2004 to improve controls, reduce paper-based transactions, and decrease the number of program and subsidiary
     systems.


                                                 Stewardship Reporting
     In accordance with Statement of Federal Financial Accounting Standards (SFFAS) No. 29, "Heritage Assets and
     Stewardship Land," the Library reports descriptive, non-financial information on heritage assets as basic information
     in its financial statements. SFFAS No. 29 is effective for reporting periods beginning after September 30, 2005.

     Prior to the issuance of SFFAS No. 29, information on heritage assets was reported as Required Supplementary
     Stewardship Information (RSSI). SFFAS No. 29 reclassifies all heritage assets information as basic financial
     information, except for condition information, which is reclassified as Required Supplementary Information (RSI).
     SFFAS No. 29 provides for a phased-in approach whereby heritage asset information is moved from RSSI to basic
     information in the financial statements. Certain disclosures must be reported as basic information beginning in
     fiscal year 2006, with other disclosures reported as basic information beginning in fiscal years 2008 or 2009. While
     full implementation of the standard is not required until reporting periods beginning after September 30, 2008, the
     Library has implemented the standard one year early and will complete full implementation by the reporting periods
     beginning after September 30, 2008.

     The phased-in disclosures are as follows: (a) for fiscal year 2006 a statement explaining how heritage assets relate
     to the mission of the entity and a description of the entity's stewardship policies; (b) for fiscal year 2007, a
     description of the major categories and physical unit information of those categories as of the end of the reporting
     period; and (c) for fiscal year 2008, the units added and withdrawn during the year and a description of the methods
     of acquisition and withdrawal.




20
                                                                              Management’s Discussion and Analysis



                                 Limitations of the Financial Statements
The Library's financial statements are the culmination of a systematic accounting process. The statements have been
prepared to report the financial position and results of operations of the Library of Congress, pursuant to the
hierarchy of accounting principles and standards set forth in Note 1 to the Financial Statements. While these
statements have been prepared from the books and records of the Library, they are in addition to the financial reports
used to monitor and control budgetary resources that are prepared from the same books and records. The statements
should be read with the realization that they are for a component of the U.S. Government, a sovereign entity. One
implication of this is that liabilities cannot be liquidated without legislation that provides resources to do so.




                                                                                                                         21
Management’s Discussion and Analysis




22
                                                                                    Consolidated Financial Statements

                           THE LIBRARY OF CONGRESS
                                  Consolidated Balance Sheets
                                     As of September 30, 2007 and 2006

                                                                                      (in thousands)
                                                                                FY 2007           FY 2006
ASSETS
     Intragovernmental:
         Fund Balance with Treasury (Note 2)                                $        314,554    $     382,059
         Investments (Note 4)                                                      1,174,112        1,176,359
         Accounts Receivable, Net (Note 5.A)                                          10,191           14,545
         Other Intragovernmental Assets                                                  686            2,608
     Total Intragovernmental                                                       1,499,543        1,575,571

     Cash and Other Monetary Assets (Note 1.G)                                            92              622
     Pledges Receivable – Donations (Note 5.B)                                         9,094            9,711
     Investments (Note 4)                                                            100,972           77,445
     Inventory and Operating Supplies and Materials (Note 1.K)                         1,003              917
     Property and Equipment, Net (Note 6)                                             48,217           31,765
     Other Assets                                                                      3,495            4,757

    Library Collections (Note 1.M)
TOTAL ASSETS                                                                $      1,662,416    $   1,700,788

LIABILITIES
     Intragovernmental:
         Accounts Payable and Accrued Funded Payroll, Benefits              $          5,521    $       7,945
         Advances from Others                                                         30,255           30,377
         Accrued Unfunded Workers’ Compensation (Note 9)                               1,634            1,758
         Other Intragovernmental Liabilities (Note 11)                                    13              250
     Total Intragovernmental                                                          37,423           40,330

     Accounts Payable and Accrued Funded Payroll, Benefits                            55,111           54,221
     Custodial Liability (Note 3)                                                  1,125,291        1,122,435
     Deposit Account Liability                                                         7,327            6,553
     Accrued Unfunded Annual and Compensatory Leave                                   22,431           22,591
     Actuarial Unfunded Workers’ Compensation (Note 9)                                 7,478            7,748
     Other Liabilities (Note 11)                                                       4,413            3,695
     TOTAL LIABILITIES                                                      $      1,259,474    $   1,257,573

     Commitments and Contingencies (Note 10)

NET POSITION
     Unexpended Appropriations – All Other Funds                            $        184,520    $     254,175
     Cumulative Results of Operations – Earmarked Funds (Note 18)                    191,713          180,273
     Cumulative Results of Operations – All Other Funds                               26,709            8,767
     TOTAL NET POSITION                                                     $        402,942    $     443,215

TOTAL LIABILITIES AND NET POSITION                                          $      1,662,416    $   1,700,788


                   The accompanying notes are an integral part of these financial statements.

                                                                                                                  23
Consolidated Financial Statements

                                    THE LIBRARY OF CONGRESS
                                    Consolidated Statements of Net Costs
                                      For the Years Ended September 30, 2007 and 2006

                                                                                                 (in thousands)
                                                                                             FY 2007        FY 2006
        NET COSTS BY PROGRAM AREA
           National Library:
              Program Costs                                                              $      433,832    $   391,139
              Less: Earned Revenue                                                               (4,546)        (4,397)
              Net Program Costs                                                                 429,286        386,742

            Law Library:
               Program Costs                                                                     23,925         21,670
               Less: Earned Revenue                                                                  (8)          (11)
               Net Program Costs                                                                 23,917         21,659

            Copyright Office:
               Program Costs                                                                      78,973         69,822
               Less: Earned Revenue                                                             (33,431)       (29,433)
               Net Program Costs                                                                  45,542         40,389

            Congressional Research Service:
               Program Costs                                                                    127,688        127,511
               Less: Earned Revenue                                                                  (2)            (5)
               Net Program Costs                                                                127,686        127,506

            National Library Service for the Blind and Physically Handicapped:
               Program Costs                                                                     51,040         59,324
               Less: Earned Revenue                                                                  (1)            (4)
               Net Program Costs                                                                 51,039         59,320

            Revolving and Reimbursable Funds:
               Program Costs                                                                      90,940         85,484
               Less: Earned Revenue                                                             (76,631)       (68,081)
               Net Program Costs                                                                  14,309         17,403

        NET COSTS OF OPERATIONS                                                          $     691,779     $   653,019




                          The accompanying notes are an integral part of these financial statements.

24
                                                                                             Consolidated Financial Statements


                                   THE LIBRARY OF CONGRESS
                        Consolidated Statements of Changes in Net Position
                                         For the Years Ended September 30, 2007 and 2006

                                                               FY 2007                                  FY 2006
                                                Earmarked     All Other    Consolidated Earmarked      All Other     Consolidated
                                                  Funds        Funds          Total       Funds         Funds           Total
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                $180,273       $8,767       $189,040     $166,960      $10,751        $177,711

Budgetary Financing Sources:
   Appropriations Used                                    0     574,291        574,291            0      555,955          555,955
   Non-exchange Revenue                               3,083           0          3,083        2,469            1            2,470
   Donations of Cash or Securities                   13,276           0         13,276        9,053            0            9,053
   Transfers In/(Out) Without
                                                    (2,997)        (488)        (3,485)        617          (556)              61
       Reimbursement
   Other                                              1,102           0          1,102        1,220             0           1,220
Other Financing Sources (Non-exchange):
   Donations of Property and Services                   273       40,588         40,861          12         16,388         16,400
   Imputed Financing                                  2,691       75,745         78,436       2,240        70,633          72,873
   Other                                             13,597            0         13,597       6,315              1          6,316
Total Financing Sources                              31,025      690,136        721,161     21,926        642,422         664,348
Net Cost of Operations                             (19,585)    (672,194)      (691,779)     (8,613)     (644,406)       (653,019)
Net Change                                           11,440       17,942         29,382      13,313        (1,984)         11,239

CUMULATIVE RESULTS OF OPERATIONS                   191,713       26,709        218,422      180,273         8,767         189,040

UNEXPENDED APPROPRIATIONS
Beginning Balances                                              254,175        254,175                   258,356          258,356

Budgetary Financing Sources:
   Approprations Received                                        558,309        558,309                   567,424         567,424
   Appropriations Transferred In/(Out)                             (594)          (594)                      (594)           (594)
   Other Adjustments                                            (53,079)       (53,079)                  (15,056)        (15,056)
   Appropriations Used                                         (574,291)      (574,291)                 (555,955)       (555,955)
Total Budgetary Financing Sources                               (69,655)       (69,655)                    (4,181)         (4,181)

TOTAL UNEXPENDED APPROPRIATIONS                                 184,520        184,520                   254,175          254,175

NET POSITION                                      $191,713     $211,229       $402,942     $180,273     $262,942        $443,215




                          The accompanying notes are an integral part of these financial statements.



                                                                                                                                     25
Consolidated Financial Statements

                                       THE LIBRARY OF CONGRESS
                                 Combined Statements of Budgetary Resources
                                          For the Years Ended September 30, 2007 and 2006

                                                                                                      (in thousands)
                                                                                            FY 2007                    FY 2006
     BUDGETARY RESOURCES
        Unobligated Balance, Brought Forward, October 1                                $         1,300,193     $           1,221,556
        Recoveries of Prior-year Unpaid Obligations                                                 10,750                     6,069
        Budget Authority:
            Appropriation                                                                          866,810                  857,900
            Spending Authority from Offsetting Collections:
                Earned:
                     Collected                                                                     133,292                  112,742
                     Change in Receivables from Federal Sources                                     (1,547)                    (21)
                Change in Unfilled Customer Orders:
                     Advances Received                                                                3,426                    7,765
                     Without Advances from Federal Sources                                          (2,174)                    (492)
                Expenditure Transfers from Trust Funds                                                    0                        2
        Total Budget Authority                                                                     999,807                   977,896
        Nonexpenditure Transfers, Net                                                               (3,294)                    (545)
        Temporarily Not Available Pursuant to Public Law                                                  0                      175
        Permanently Not Available                                                                 (53,124)                  (15,151)
     TOTAL BUDGETARY RESOURCES                                                         $         2,254,332     $           2,190,000

     STATUS OF BUDGETARY RESOURCES
         Obligations Incurred:
             Direct                                                                    $           883,122     $             771,756
             Reimbursable                                                                          133,046                   118,051
         Total Obligations Incurred                                                              1,016,168                   889,807
         Unobligated Balance – Exempt from Apportionment                                         1,226,452                 1,290,989
         Unobligated Balance – Not Available                                                        11,712                     9,204
     TOTAL STATUS OF BUDGETARY RESOURCES                                               $         2,254,332     $           2,190,000

     CHANGE IN OBLIGATED BALANCE
        Unpaid Obligated Balance, Net, Brought Forward, October 1:
            Unpaid Obligations, Brought Forward                                        $           253,095     $             231,350
            Less: Uncollected Customer Payments, Brought Forward                                  (14,462)                  (14,975)
        Total Unpaid Obligation Balance, Net                                                       238,633                   216,375
        Obligations Incurred, net                                                                1,016,168                   889,807
        Less: Gross Outlays                                                                    (1,018,098)                 (861,993)
        Less: Recoveries of Prior-Year Unpaid Obligations                                         (10,750)                    (6,069)
        Change in Uncollected Customer Payments from Federal Sources                                 3,721                        513
        Unpaid Obligated Balance, Net, End of Period:
            Unpaid Obligations                                                                    240,415                   253,095
            Less: Uncollected Customer Payments from Federal Sources                              (10,741)                  (14,462)
     TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD                                $          229,674      $            238,633

     NET OUTLAYS
         Gross Outlays                                                                 $         1,018,098     $             861,993
         Less: Offsetting Collections                                                            (136,718)                 (120,509)
         Less: Distributed Offsetting Receipts                                                    (58,253)                  (45,942)
     NET OUTLAYS                                                                       $           823,127     $             695,542
            (The Library has no Non-Budgetary Credit Program Financing Accounts; all amounts above are Budgetary.)

                              The accompanying notes are an integral part of these financial statements.


26
                                                                       Notes to the Consolidated Financial Statements


    NOTE 1              SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A. Reporting Entity

The Library of Congress (the Library), a legislative branch agency of the U.S. government, was established in 1800
primarily to provide information and policy analyses to the members and committees of the U.S. Congress. Since
then, the Library has been assigned other major missions such as administering the U.S. copyright laws, providing
cataloging records to the nation's libraries, and coordinating a national program to provide reading material for blind
and physically handicapped residents of the U.S. and its territories and U.S. citizens residing abroad. The Library
also provides services to other federal agencies and administers various gift funds and funds accepted and controlled
by the Library of Congress Trust Fund Board (TFB).

The Library's programs and operations are subject to oversight by the Joint Committee on the Library, which is
comprised of members of the U.S. House of Representatives and Senate. The Library relies primarily on
appropriated funds to support its programs and operations. Budget requests are subject to review by the House and
Senate Appropriations Subcommittees on Legislative Branch Appropriations. The Library also receives funds from
other agencies for services provided under the Economy Act and other statutes. In addition, the Library administers
several fee-for-service revolving funds and receives donations from the public, which are classified as gifts or funds
accepted and controlled by the Library of Congress Trust Fund Board, which consists of the Librarian of Congress
(who is Chairman and Secretary of the Trust Fund Board), the Chairman and Vice-Chairman of the Joint Committee
on the Library, the Secretary of the Treasury (or an assistant secretary designated in writing by the Secretary of the
Treasury), and ten additional members appointed by the President (two), the U.S. House of Representatives (four),
and the U.S. Senate (four).

Entity activities are those for which the Library has the authority to use the assets. Non-entity activities consist
primarily of custodial accounts that are not available for use by the Library.

B. Basis of Presentation
The accompanying financial statements report the financial position, net costs, changes in net position, budgetary
resources of the Library for fiscal years 2007 and 2006. These consolidated and combined financial statements
include the accounts of all funds under the Library's control, which have been established and maintained to account
for the resources of the Library. They were prepared from the Library's financial management system in accordance
with Generally Accepted Accounting Principles (GAAP).

Material intra-Library transactions and balances have been eliminated from the Consolidated Balance Sheets, the
Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in Net Position. The Statement
of Budgetary Resources is presented on a combined basis; therefore, intra-Library transactions and balances have
not been eliminated from this statement.

As a legislative branch agency, the Library is not required to follow the executive agency accounting principles
established by the Comptroller General under 31 U.S.C. 3511 or the standards developed by the Federal Accounting
Standards Advisory Board (FASAB). However, the Library maintains its fund balances with the Department of the
Treasury and submits information required to incorporate its financial and budgetary data into the overall federal
government structure. For purposes of financial management and reporting, the Library has issued a regulation
(LCR 1510), which adopts the federal standards for financial reporting and internal controls in a manner consistent
with a legislative agency. The Library has not adopted the Federal Financial Management Improvement Act of
1996, the Federal Managers Financial Integrity Act and the Government Performance and Results Act, as these
standards are not applicable to the Library. However, the Library uses these sources as guidance and reference in its
operations.

The statements include 4 (4) appropriated fund accounts; 26 (26) revolving (and gift revolving) funds; 23 (23)
reimbursable funds; 102 (104) TFB funds; and 120 (126) gift funds for fiscal year 2007 (and 2006, respectively).




                                                                                                                          27
Notes to the Consolidated Financial Statements


     C. Basis of Accounting

     The Library’s financial statements conform to accounting principles generally accepted in the United States of
     America as promulgated by the Federal Accounting Standards Advisory Board (FASAB). The American Institute
     of Certified Public Accountants recognizes FASAB Standards as generally accepted accounting principles for
     federal reporting entities.

     The statements were also prepared based on guidance published in the Office of Management and Budget (OMB)
     Circular No. A-136, Financial Reporting Requirements. The Library is not required to adopt this circular, and
     accordingly has elected to use the disclosures management deems necessary for the fair presentation of financial
     statement information.

     The accounting structure of the Library is designed to reflect both accrual and budgetary accounting. Under the
     accrual method, revenues are recognized when earned and expenses are recognized when a liability is incurred,
     without regard to receipt or payment of cash. The budgetary accounting, on the other hand, is designed to recognize
     the obligation of funds according to legal requirements, which in many cases is prior to the occurrence of an accrual-
     based transaction. The budgetary accounting facilitates compliance with legal constraints on and controls over the
     use of federal funds.

     The preparation of financial statements in conformity with GAAP requires management to make estimates and
     assumptions that affect the reported amounts of assets and liabilities and the disclosure of contingent assets and
     liabilities at the date of the financial statements and the reported amounts of revenues and expenses during the
     reporting period. Actual results could differ from these estimates.

     D. Revenues and Other Financing Sources

     Appropriations

     The Library receives the majority of its funding to support its programs through four appropriations that include
     both annual and no-year funding. The appropriated funds may be used, within statutory limits, for operating and
     capital expenditures including equipment, furniture and furnishings. Appropriations are recognized as revenues at
     the time they are expended. The four appropriations for fiscal year 2007 are:

         •    Library of Congress, Salaries and Expenses (annual and no-year)
         •    Copyright Office, Salaries and Expenses (annual and no-year)
         •    Congressional Research Service, Salaries and Expenses (annual)
         •    National Library Service for the Blind and Physically Handicapped, Salaries and Expenses (annual and no-
              year)

     Earned Revenues

     Additional amounts are obtained through reimbursements from services performed for other federal agencies as
     authorized by the Economy Act and the Library's annual appropriations legislation. In addition, the Library operates
     several self-sustaining revolving funds that generate revenues from the sale of various products and services to the
     public and federal customers. Revolving and reimbursable fund revenue is recognized when goods have been
     delivered or services rendered.

     Under the authority of 2 U.S.C. 182, the Cooperative Acquisitions Revolving Fund was established on October 1,
     1997, and is the program under which the Library acquires foreign publications and research materials on behalf of
     participating institutions on a cost-recovery basis (over time). 2 U.S.C. 182 was amended for the establishment of
     revolving funds for Audio and Video Duplication, Gift Shop Operations, Decimal Classification, Photo Duplication,
     Special Events, FEDLINK and Federal Research Program.

         •    The Audio and Video Duplication fund provides audio and video duplication and delivery services which
              are associated with the Packard Campus for Audio-Visual Conservation in Culpeper, Virginia.
         •    The Decimal Classification fund performs decimal classification development.


28
                                                                       Notes to the Consolidated Financial Statements


    •   The Gift Shop fund operates a gift shop and other sales of items associated with collections, exhibits,
        performances, and special events at the Library.
    • The Photo Duplication fund provides document reproduction and microfilming services.
    • The Special Events fund performs services related to the hosting of special events and programs by the
        Librarian in Library facilities.
    • The FEDLINK program is the program of the Library under which procurement of publications and library
        support services, along with related accounting, education and support services are provided to Federal
        Government or District of Columbia entities.
    • The Federal Research Program provides research reports, translations and analytical studies for Federal
        Government or District of Columbia entities.
The revolving funds report but are not required to recover unreimbursed inter-entity costs (imputed costs).

Imputed Financing Sources

In accordance with FASAB’s Statement of Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial
Cost Accounting Concepts and for the Federal Government Standards,” the Library has recorded expenses for the
unreimbursed full costs of goods and services that it receives from other legislative branch agencies (i.e., the
Architect of the Capitol and the Government Printing Office) and executive branch agencies specifically identified
for fiscal years 2007 and 2006 reporting by OMB, (i.e., the Office of Personnel Management (OPM) and the
Department of the Treasury). Since these costs are not actually paid to the other agencies, an imputed financing
source is recorded to offset these costs that are financed by the other Federal agencies.

Custodial Funds

The Library of Congress Copyright Office Licensing Division administers the compulsory and statutory licenses
covered by the Copyright Act (17 U.S.C.). The Licensing Division receives royalty fees from cable television
operators for retransmitting television and radio broadcasts, from satellite carriers for retransmitting "super station"
and network signals, and from importers and manufacturers for distributing digital audio recording technologies
(DART). Refunds may arise when a cable, satellite, or DART remitter inadvertently overpays or is otherwise
entitled to a refund. The Licensing Division invests the licensing royalty fees in market-based U.S. Treasury notes
and bills. Because these investments are held in a custodial capacity for the copyright owners, income does not
accrue to the Library's benefit.

Controversies regarding the distribution of the royalties are resolved by the Copyright Royalty Board (CRB), which
is composed of three Copyright Royalty Judges and their staff. The CRB has full jurisdiction over setting royalty
rates and terms and determining distributions. Decisions may be appealed to the United States Court of Appeals for
the District of Columbia Circuit.

Donation and Interest Revenue

The Library receives monetary gifts from donors and receives interest on invested funds. The Library also received
gifts of donated property or services during fiscal years 2007 and 2006. The Library records these in-kind
donations as donated revenue in the period earned and an offsetting expense in the same period. The Ad Council
provided nearly all of the in-kind donations in the form of free advertising for America’s Library website. Several
vendors provided in-kind donations for the Library’s annual book festivals and several other meetings. Finally, the
Ira and Leonore Gershwin Trust Fund and Related Charitable Trust provided in-kind materials and services to the
Library.

Deferred Credits

The Library received gifts subject to certain conditions being met. These are not considered earned until the
conditions are met, and are recorded as deferred credits until earned.




                                                                                                                           29
Notes to the Consolidated Financial Statements


     E. Gift and TFB Funds

     The Library administered gift and TFB funds with combined asset value of approximately $170.4 million and
     $154.4 million during fiscal years 2007 and 2006, respectively. Funds are restricted as to their use, which must be
     in accordance with the terms of the gift agreement. In general, funds are either temporarily restricted (principal may
     be spent) or permanently restricted (principal may not be spent). Additional restrictions may be imposed on TFB
     funds by the terms of an agreement or donor's will. Library fund managers administer and oversee the gift and TFB
     funds to ensure they are used as directed by the donors and in accordance with Library policy.

     F. Fund Balance with Treasury

     The amount shown as Fund Balance with Treasury represents the balances of the appropriated, reimbursable, gift
     and TFB funds, revolving, deposit and custodial funds that are on deposit with the U.S. Treasury.

     G. Cash and Other Monetary Assets

     Cash and other monetary assets are defined as all cash not held by the U.S. Treasury. This category includes
     deposits in transit, cash on hand and imprest funds.

     The Library receives and utilizes foreign currencies in carrying out operations abroad as it conducts business
     through six overseas offices. Foreign currency balances at year-end are immaterial to the financial statements.

     H. Investments (Net)

     Gift and TFB Funds - The Library of Congress Trust Fund Board determines the investment policy for the Library's
     gift and TFB funds. The policy provides three options for investment of TFB funds:

         •    A permanent loan with the U.S. Treasury

         •    A pool of U.S. Treasury market-based securities

         •    A private investment pool consisting of the following stock, index and money market funds utilized during
              fiscal year 2007 and 2006:

              •   Vanguard Institutional Index Fund
              •   Vanguard Capital Opportunity Fund
              •   Fidelity Blue Chip Growth Fund
              •   Fidelity Capitol Appreciation Fund
              •   Fidelity Growth Company Fund
              •   Fidelity Dividend Growth Fund

     The policy for gift funds allows only for investment in U.S. Treasury market-based securities.

     Under 2 U.S.C. 158, up to $10 million of the Library's gift and TFB funds may be invested with the U.S. Treasury as
     a permanent loan at a floating rate of interest, adjusted monthly, but no less than four percent per annum. The
     permanent loan is an interest bearing investment recorded at cost, which is market value.

     Treasury securities are intended to be held to maturity, are valued at cost, and are adjusted for the amortization of
     discounts and premiums. Interest is computed using the straight-line method, which approximates the effective
     interest method.

     Stock and money market funds are stated at current market value and are considered available for sale. Unrealized
     gains and losses are recognized and recorded as a component of non-exchange revenue in the statement of changes
     in net position.




30
                                                                       Notes to the Consolidated Financial Statements


All gift and TFB fund investments are obtained and held by the gift and TFB funds under conditions set forth in the
respective gift and TFB instruments.

Custodial Fund - Copyright royalties collected by the Copyright Office on behalf of copyright owners are invested,
net of service fees, in U.S. Treasury securities. Treasury securities are intended to be held to maturity, are valued at
cost and are adjusted for the amortization of discounts and premiums. Interest is computed using the straight-line
method, which approximates the effective interest method. These investments will be held until distributions are
made to copyright owners. Income accrues to the benefit of the copyright owners.

Deposit Funds - Pursuant to Public Law 105-80, funds deposited by copyright applicants are invested, based on the
unearned balance available, by the Copyright Office in U.S. Treasury securities. Treasury securities are intended to
be held to maturity, are valued at cost and are adjusted for the amortization of discounts and premiums. Interest is
computed using the straight-line method, which approximates the effective interest method. These investments will
be held until the deposit fees are earned and income accrues to the benefit of the Copyright Office.

I. Accounts Receivable

Accounts receivable primarily resulted from billings to other federal agencies under reimbursable interagency
agreements for database retrieval and other library services. The Library has established an allowance for doubtful
accounts against accounts receivable due from non-federal customers, based on past collection experience. The
Library does not record allowance for doubtful accounts for intragovernmental accounts receivable in accordance
with SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” which cites that “losses on receivables should
be recognized when it is more likely than not that the receivable will not be totally collected.” Intragovernmental
receivables are likely to be totally collected.

J. Pledges Receivable
Contributions of unconditional promises to give (pledges) to the Library and the Library of Congress TFB are
recognized as donated revenue in the period the pledge is received. They are recorded at their estimated present
value using a market-based discount rate. Accretion of the discount in subsequent years is also recorded as donated
revenue. Substantially all of the Library's pledges are from major corporations or donors. The Library regularly
monitors the status of all pledges and adjusts accordingly; therefore no allowance for uncollectible pledges has been
established.

K. Inventory and Related Property
The Library's inventories and supplies and materials are primarily comprised of bibliographic products, and
unissued supplies that will be consumed in future operations; materials used to reproduce printed materials; sound
recordings for both internal and external sales; and sales shop merchandise for resale. Consumable operating
supplies are valued at cost using a first-in first-out method of valuation. Sales shop merchandise is valued at cost or
market, whichever is lower. The recorded values of inventory and operating materials and supplies are adjusted for
the results of periodic physical counts.

L. Property and Equipment

For fiscal years prior to 1998, the Library capitalized furniture and equipment at cost if the initial acquisition cost
was $10,000 or more. Starting in fiscal year 1998, the Library capitalizes furniture and equipment at cost if the
initial acquisition cost is $25,000 or more. Depreciation is computed on a straight-line basis using estimated useful
lives.

Property and equipment accounts are maintained in three categories of funds: Appropriated, Reimbursable and
Revolving. The appropriated fund category includes all property and equipment used by the Library for general
operations. Property and equipment purchased by the Integrated Support Services Administrative Working Fund are
recorded in the reimbursable funds. Property and equipment purchased by FEDLINK, the Federal Research
Program, Document Reproduction and Microfilm Service, Audio Visual Services, and the Cooperative Acquisitions
Program are recorded in the revolving funds.



                                                                                                                           31
Notes to the Consolidated Financial Statements



     The Library occasionally acquires property and equipment by direct gift or by purchase from funds donated for a
     specific purpose or project. Because property is generally not restricted for use to gift and trust activities, property
     accounts are not maintained in the gift and TFB funds. Capitalized property and equipment acquired through gifts
     are recognized as donated revenue in the gift and TFB funds and transferred to the Library's appropriated fund. The
     Library records the donated property and equipment at its fair market value at the time of the gift.

     Operating equipment is amortized over a 3 to 20-year period. Software includes ADP software purchased from
     outside vendors and software defined as “internal use software” in accordance with SFFAS No. 10, “Accounting for
     Internal Use Software.” All software recorded has an estimated useful life of three years or more and a value of at
     least $10,000 per item acquired in fiscal years 1997 and prior or at least $100,000 per item acquired in fiscal years
     after 1998.

     Leased equipment meeting the criteria for capitalization in accordance with Statements of Federal Financial
     Accounting Standards is included in property and equipment.

     Land and buildings are excluded from the Library's property and equipment accounts because they are under the
     custody and control of the Architect of the Capitol. This arrangement encompasses four Capitol Hill buildings (the
     Thomas Jefferson, James Madison, John Adams Buildings, and the Special Facilities Center), a secondary storage
     facility at Fort Meade, Maryland, and the Packard Campus for Audio-Visual Conservation in Culpeper, Virginia.
     The Architect receives an appropriation from Congress to fund maintenance, care and operations of the Library’s
     buildings and grounds. Costs associated with the acquisition and maintenance of these buildings is accounted for by
     the Architect. However, the Library has recorded the inter-entity cost and related imputed financing source in its
     books. The Library does capitalize and depreciate leasehold improvements to its facilities as long as the
     improvements were made using the Library’s funding sources.

     M. Library Collections
     The Library classifies its collections as Heritage Assets, that is, assets with historical, cultural, educational, artistic
     or natural significance. The Library’s mission is to make its resources available and useful to the Congress and the
     American people and to sustain and preserve a universal collection of knowledge and creativity for future
     generations.

     The Library’s collection development policies are designed to fulfill its responsibilities to serve (1) the Congress and
     United States government as a whole, (2) the scholarly and library community, and (3) the general public. Written
     collection policy statements ensure that the Library makes every effort to possess all books and library materials
     necessary to the Congress and various offices of the United States government to perform their duties; a
     comprehensive record, in all formats, documenting the life and achievement of the American people; and a universal
     collection of human knowledge embodying, primarily in print form, the records of other societies, past and present.

     Copyright deposits are a major source of the Library’s collections of Americana. The Library also acquires materials
     by purchase, transfer from other federal agencies, gift, domestic and international exchange, or by provisions of state
     and federal law. Many of these materials are foreign publications. Various preservation methods are used to
     maintain the collections, and disposals occur only for the exchange and gift of unwanted or duplicate copies. As of
     September 30, 2007 the Library has 90 collections managed by its custodial units.

     The cost of acquiring additions to the collections is expensed, when incurred, in the statement of net cost. (See note
     13.) Supplemental information regarding the condition and preservation of the collections is included with the
     Management Assertion on the collections.

     N. Liabilities
     Liabilities represent the amounts that are likely to be paid by the Library as a result of transactions that have already
     occurred. Liabilities for which an appropriation has not been enacted, or which are the result of deposit account
     activities, are classified as liabilities not covered by budgetary resources. For accrued unfunded annual leave,




32
                                                                      Notes to the Consolidated Financial Statements


compensatory time earned, workers' compensation and capital lease liabilities, it is not certain that appropriations
will be enacted to fund these amounts.

    Advances from Others are funds received for the revolving programs that have not yet been earned.

    Custodial and Deposit Liabilities are customer funds on deposit for Copyright Photoduplication and Cataloging
    Distribution Service products and services. This category also includes the custodial funds for Copyright
    royalties.

    Accrued Annual and Compensatory Leave - The Library's basic leave policy is contained in Title 5, U.S.C.; the
    Uniform Annual and Sick Leave Regulations of the Office of Personnel Management; and the decisions of the
    Comptroller General. Generally, each employee may carry forward a maximum of 240 hours of annual leave
    per calendar year. Accrued annual leave is accrued as it is earned and adjusted at the end of each fiscal year
    based on annual leave earned and taken. Annual leave earned in excess of the maximum permitted carryover is
    forfeited. Each year, the balance in the accrued annual leave account is adjusted to reflect current pay rates.

    Employees' compensatory time earned but not taken is also accrued at year-end. An employee may accumulate
    a maximum of 40 hours of compensatory time during the fiscal year. A maximum of 20 hours may be carried
    forward from one leave year to the next only when it was earned during the last pay period of the leave year.
    Exceptions to the accumulation and carry forward rules require the approval of the Librarian or his/her
    designee.

    Sick leave and other types of nonvested leave are expensed as taken.

    Capital Lease Liabilities are liabilities resulting from capital leases of equipment. The Library’s lease
    agreements are annual fiscal year contracts that are subject to the availability of funding. The agreements
    contain a lease to purchase provision and there is no penalty for discontinuing the lease and turning back
    equipment prior to the completion of the agreement.

O. Federal Employee Retirement Benefits
Approximately 30 percent and 31 percent of the Library's employees participated in the Civil Service Retirement
System (CSRS) during fiscal years 2007 and 2006, respectively, to which the Library makes contributions equal to
7.0 percent of pay. Approximately 3 percent of employees under CSRS during fiscal years 2007 and 2006 are also
covered by Social Security (FICA), for which the Library’s contribution is slightly less.

Approximately 67 percent and 65 percent of the Library’s employees were covered by the Federal Employees
Retirement System (FERS) during fiscal years 2007 and 2006, respectively, to which the Library's normal
contribution was 11.2 percent of pay during fiscal years 2007 and 2006, respectively. Additionally, for employees
under FERS, the Library contributes an automatic 1% of employee's pay, plus matches employee Thrift Savings
Plan (TSP) contributions up to four percent of pay (matched dollar-for-dollar on the first 3 percent of pay and 50
cents on the dollar for the next 2 percent of pay). Under FERS, the employee is also covered by FICA to which the
Library contributes the employer's matching share.

Approximately 3 percent of the Library's employees were covered only by FICA during fiscal years 2007 and 2006,
respectively, to which the Library contributes the employer’s matching share.

The accrued contributions due at the end of the fiscal year are reported as liabilities covered by budgetary resources.

The actuarial present value of accumulated benefits, assets available for benefits, and unfunded pension liability of
Social Security, FERS and CSRS is not allocated to individual Federal departments and agencies. However, in
accordance with SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” current year expenses were
recorded for the service cost of the Library’s employee retirement, health and life insurance benefits during fiscal
years 2007 and 2006, respectively, and was offset by an imputed financing source, which represents the amount
being financed directly by OPM.




                                                                                                                          33
Notes to the Consolidated Financial Statements


     P. Federal Government Transactions

     The financial activities of the Library interact with and depend on other federal government agencies. Thus, the
     Library's financial statements do not reflect all financial decisions and activities applicable to it as if it were a stand-
     alone entity. The financial statements do not contain the cost of activities performed for the benefit of the entire
     government, nor do they include the agency's share of the federal deficit or of public borrowings, including interest
     thereon. However, expenses have been recognized for expenses incurred by certain other agencies on behalf of the
     Library, including settlement of claims and litigation paid by the Treasury’s Judgment Fund and the partial funding
     of employee benefits by OPM.

     The Library's program for the blind and physically handicapped participates in the U.S. Postal Service's (USPS)
     "Matter for Blind and Other Handicapped Persons" program (39 U.S.C. 3403 - 3406). This Postal Service program
     receives an appropriation from Congress to provide free postage for qualifying organizations, programs, and
     individuals such as mail from war zones, letters from blind people to anyone, and organizations that work for the
     blind. The Library's National Library Service for the Blind and Physically Handicapped uses this free matter
     program for mailing all books and equipment to its participating lending libraries and patrons. No cost for this has
     been determined, nor included in the Library’s financial statements as the Library views the relationship with the
     USPS and state and local libraries as a partnership and not inter-entity costs.

     Services Provided to other Federal Agencies:

         •    The Library is authorized to provide to other federal libraries and agencies services such as automated
              library information and other data base retrieval services through data base vendors and in-house research
              studies. These services are provided on a cost reimbursement basis and are billed in advance of providing
              the services. At year-end the Library estimates the amount received in advance (Advances From Others -
              Intragovernmental) and the amount to be received for services provided (Accounts Receivable -
              Intragovernmental).

     Services Provided by other Federal Agencies:

     Three governmental agencies provide administrative services to the Library on a reimbursable basis.

         •    The Department of Agriculture's National Finance Center (NFC) processes the Library's personnel, payroll,
              and employee benefits accounting transactions.

         •    The Library utilizes the services of the Department of State as documented by the International Cooperative
              Administrative Support Services (ICASS) system to support the Library's six overseas field offices.

         •    General Services Administration (GSA) provides building and vehicle leasing services for the Library.

     Q. Related Party Organizations
     The Library lends support to several related organizations, projects, and programs from which it receives benefits in
     various forms. The following is a list of these organizations or programs:

         1.   Telephone Pioneers of America - The Telephone Pioneers is a large industry-related organization that
              voluntarily repairs playback machines for the blind and physically handicapped program. Approximately
              1,500 Telephone Pioneers (AT&T retirees) and Elfuns (General Electric retirees) donate their time to repair
              the cassette book machines and talking book machines.

         2.   Library of Congress Child Care Association (LCCCA) - The LCCCA is a nonprofit corporation under
              the District of Columbia's Nonprofit Corporation Act. It was granted 501(c)(3) status by the Internal
              Revenue Service on August 31, 1992, and currently operates as the "Little Scholars Child Development
              Center." The center is located on the ground floor of the Library's Special Facilities Center, 601 East
              Capitol Street, District of Columbia. The center provides childcare for Library employees and other federal
              and non-federal employees. Its operations, management, and employees are the responsibility of the


34
                                                                    Notes to the Consolidated Financial Statements


     LCCCA and not the Library. However, the Library and the Architect of the Capitol support the center with
     equipment, free space, cleaning and maintenance of grounds and building, utilities, local telephone service,
     and security. The value of the services provided by the Library cannot be readily determined. In addition,
     the Library, in accordance with Public Law 106-554, pays the government contributions for individuals
     receiving health, life and retirement benefits provided by the Office of Personnel Management. The
     Library provides an official who is a non-voting representative on the center's Board of Directors and who
     acts as a liaison with the Library.

3.   The Archer M. Huntington Charitable Trust - This charitable trust was established in 1936 and is
     controlled and invested by the Bank of New York. The assets of the endowment are not a part of the
     Library of Congress Trust Fund Board and the board's only control over its investment activities is through
     the Librarian of Congress' role as trustee. The trust is defined as a split-interest agreement with a fair value
     of assets of $5.7M and $5.3M at September 30, 2007 and 2006, respectively. The Library is entitled to
     one-half of the income from the trust for perpetuity, which is used to support a rotating consultantship to
     bring "distinguished men of letters . . ." to the Library. Currently, the income assists in the funding of a
     "poet laureate" position, the acquisition of materials for the Library’s Hispanic collections, and the
     promotion of activities of the Hispanic Division, particularly those that relate to Spain, Portugal and Latin
     America.

4.   Ira and Leonore Gershwin Trust Fund and Related Charitable Trust - Under the will of Mrs. Leonore
     Gershwin, the Library of Congress Trust Fund Board is the beneficiary of 37.5 percent of Mrs. Gershwin's
     "1987 Trust." The will established the "Library Charitable Trust" which was accepted by the Library of
     Congress Trust Fund Board in January 1992. The primary purpose of the trust is to perpetuate the name
     and works of George and Ira Gershwin through all resources of the Library. The charitable trust does not
     belong to the Library but is a separate entity administered by trustees. The net income of the charitable
     trust is distributed to the Library's Ira and Leonore Gershwin Trust Fund yearly or upon the request of the
     Library. Income is recorded by the Library in the period received. The balance of the Principal of the
     charitable trust will be distributed to the Library in 2033, fifty years after the date of death of Ira Gershwin.




                                                                                                                         35
Notes to the Consolidated Financial Statements



        NOTE 2               FUND BALANCE WITH TREASURY

     A. Fund balance with Treasury at September 30, 2007 and 2006, is summarized as follows:

                                                                                       (in thousands)
                                                                                 FY 2007            FY 2006
            Appropriated Funds                                              $         218,841 $          290,367
            Revolving and Reimbursable Funds                                           79,039             75,598
            Gift and TFB Funds 1                                                       14,210             14,740
            Custodial, Deposit and Other Funds                                          2,464              1,354
            TOTAL                                                           $         314,554 $          382,059

        1
          At September 30, 2007 and 2006, the gift and TFB fund balance with Treasury included $10 million
        invested in the permanent loan, which is included in fund balance with Treasury, at interest rates of 4.7 and
        4.6 percent, respectively.

     B. Status of Fund Balance with Treasury

                                                                                       (in thousands)
                                                                                 FY 2007            FY 2006
            Unobligated Balances – Available                                $          59,503 $          121,756
            Unobligated Balances – Unavailable                                         25,156             21,493
            Obligated Balances Not Yet Disbursed                                      229,895            238,810
            TOTAL                                                           $         314,554 $          382,059




36
                                                                  Notes to the Consolidated Financial Statements



    NOTE 3              CUSTODIAL FUNDS

Custodial activity consists of the following:

                                                                               (in thousands)
                                                                         FY 2007           FY 2006
     Beginning Custodial Liability                                  $       1,122,435 $       1,048,431

     Cash Collections:
        Licensing Fees                                                        233,740            226,794
        Investment Interest                                                    54,774             43,465
        Total Cash Collections                                                288,514            270,259
     Investment Amortization / Accruals                                        (1,272)               840
     Total Custodial Revenue                                                  287,242            271,099

     Disposition of Collections:
       Payments to Copyright Owners                                         (279,931)           (191,043)
       Refunds                                                                  (964)               (935)
       Change in Investment Premium                                               439                 (0)
       Retained by Copyright Licensing for Administrative Costs               (3,930)             (5,117)
     Total Custodial Expense                                                (284,386)           (197,095)

     Net Custodial Activity                                                     2,856              74,004
     ENDING CUSTODIAL LIABILITY                                     $       1,125,291 $         1,122,435




                                                                                                             37
Notes to the Consolidated Financial Statements



         NOTE 4                 INVESTMENTS, NET

     Investments at September 30, 2007 and 2006 are as follows:


                                                                               (in thousands)
                                                       Intragovernmental
                                                           Investments     Other Investments
                          FY 2007                       (Non-Marketable,     (Private Sector)
                                                                                                         Total
                                                          Market-Based)
          Face Value                                    $        1,176,414 $                  $            1,176,414
          Cost                                                                           90,046                  90,046
          Unamortized Premium                                          392                                          392
          Unrealized Discount                                       (3,397)                                      (3,397)
          Interest Receivable                                          703                                          703
          Investments, Net                              $        1,174,112 $             90,046 $          1,264,158
          Market Value                                  $        1,172,913 $            100,972 $          1,273,885



                                                                               (in thousands)
                                                       Intragovernmental
                                                           Investments     Other Investments
                          FY 2006                       (Non-Marketable,     (Private Sector)
                                                                                                         Total
                                                          Market-Based)
          Face Value                                    $        1,180,430 $                  0 $          1,180,430
          Cost                                                           0               78,752                  78,752
          Unamortized Premium                                           (1)                     0                    (1)
          Unrealized Discount                                       (4,743)                     0                (4,743)
          Interest Receivable                                          673                      0                   673
          Investments, Net                              $        1,176,359 $             78,752 $          1,255,111
          Market Value                                  $        1,175,857 $             77,445 $          1,253,302



     A. Intragovernmental Investments

     Non-marketable, market-based securities are Treasury notes and bills issued to governmental accounts that are not
     traded on any securities exchange, but mirror the prices of marketable securities with similar terms. TFB fund
     investment maturity dates for fiscal years 2007 and 2006 range from October 4, 2007 to April 30, 2008 and October
     5, 2006 to April 30, 2008, respectively, and interest rates for the same fiscal years range from 3.72 percent to 4.91
     percent and 3.50 percent to 5.05 percent, respectively.

     Custodial funds investment maturity dates for fiscal years 2007 and 2006 range from October 4, 2007 to August 31,
     2008 and October 19, 2006 to August 31, 2007, respectively, and interest rates for the same fiscal years range from
     3.35 percent to 5.00 percent and 3.75 percent to 4.71 percent, respectively.




38
                                                                        Notes to the Consolidated Financial Statements


B. Other Investments

Other investments are the Library's investments in private sector mutual funds. Cost was derived from the
investments made plus reinvested gains, dividends, and interest.

Balances at September 30, 2007 and 2006 are as follows:


                                             Non-Treasury Investments
                                               Fiscal Year 2007   Fiscal Year 2006




                      $120          $101.0
                                                                              $90.0
                      $100                                                                     $78.8
                                                     $77.4

                      $80
      (in millions)




                      $60


                      $40


                      $20


                       $0
                             Equity Mutual Funds (market value)            Equity Mutual Funds (cost)




                                                                                                                   39
Notes to the Consolidated Financial Statements



         NOTE 5              RECEIVABLES

     The breakdown of consolidated gross and net accounts receivable at September 30, 2007 and 2006 are as follows:

     A. Accounts Receivable

                                                                                           (in thousands)
                                                                                     FY 2007            FY 2006
          Intragovernmental Accounts Receivable, Gross and Net                  $         10,191 $           14,545

          With the Public:
              Accounts Receivable, Gross                                                      3,505              4,553
              Less: Allowance for Doubtful Accounts                                            (32)               (27)
              Accounts Receivable, Net                                          $             3,473   $          4,526


     B. Pledges Receivable

     At September 30, 2007 and 2006, the Library had unconditional pledges of contributions totaling $10.4 million and
     $11.1 million, which were discounted through fiscal years 2033 and 2032 at a market discount rate and included in
     the statement of financial position at their discounted value of $9.1 million and $9.7 million, respectively.

     The amounts due in future years, at September 30, at their current discounted value are:

                                                                                          (in thousands)
                                                                                    FY 2007               FY 2006
          2007                                                              $                  0 $               6,175
          2008                                                                             5,535                 1,277
          2009                                                                             1,068                   485
          2010                                                                               799                   339
          2011                                                                               234                    24
          2012 and thereafter                                                              1,458                 1,411
          TOTAL                                                             $              9,094 $               9,711




40
                                                                       Notes to the Consolidated Financial Statements



    NOTE 6              PROPERTY AND EQUIPMENT

Property and equipment that were capitalized at September 30, 2007 and 2006 are as follows:

                                                                    (in thousands)
                                            FY 2007                             FY 2006
                                           Accumulated                         Accumulated
    Classes of Property        Acquisition                Net Book Acquisition                Net Book
                                           Depreciation /                      Depreciation /
     and Equipment               Value                     Value     Value                     Value
                                           Amortization                        Amortization
Operating Equipment           $    61,119 $       47,839 $ 13,280 $    78,256 $       73,524 $ 4,732
Software                             28,617            13,774      14,843            26,985         11,957       15,028
Furniture & Furnishings                 985               613         372              985             564          421
Leasehold Improvements               28,461            12,510      15,951            22,996         11,412       11,584
Leasehold Improvements-in
                                      3,771                 0       3,771                0                0           0
Progress
TOTAL                          $    122,953 $          74,736 $    48,217 $      129,222 $          97,457 $     31,765



    NOTE 7              NON-ENTITY ASSETS

Entity assets are those assets that the Library has authority to use for its operations. Non-entity assets are those held
by the Library but are not available for use in its operations.
                                                                                        (in thousands)
                                                                              FY 2007                  FY 2006
 Intragovernmental Non-Entity Assets:
    Fund Balance with Treasury                                        $                    275 $                    407
    Investments                                                                     1,125,063                 1,122,041
    Accounts Receivable, Net                                                                  2                        5
    Other Assets                                                                              0                        0
 Total Intragovernmental Non-Entity Assets                                          1,125,340                 1,122,453
 Investments                                                                                  0                        0
 Pledge Receivables (Donations)                                                               0                        0
 Cash and Other Monetary Assets                                                               0                        0
 Inventory                                                                                    0                        0
 Property and Equipment, Net                                                                  0                        0
 Other Assets                                                                                 5                        3
 Total Non-Entity Assets                                                            1,125,345                 1,122,456
 Total Entity Assets                                                                  537,071                   578,332
 Total Assets                                                         $             1,662,416 $              $1,700,788




                                                                                                                            41
Notes to the Consolidated Financial Statements



         NOTE 8              LEASES

     A. Capital Leases

     The Library does not have assets under capitalized leases for machinery and equipment as of September 30, 2007 or
     2006.

     B. Operating Leases

     The Library leases office space and vehicles from the General Services Administration and has entered into other
     operating leases for various types of equipment. Additionally, the Library’s overseas field offices lease operating
     space from the Department of State.

     Lease costs for office space, vehicles and equipment for fiscal years 2007 and 2006 amounted to $4,985,116 and
     $4,138,250 respectively.

     Under existing commitments as of September 30, estimated future minimum lease payments are as follows:

                                                                                         (in thousands)
                                                                                   FY 2007            FY 2006
          2007                                                                $                0 $           4,703
          2008                                                                            4,444              4,185
          2009                                                                            3,933              3,899
          2010                                                                            3,895              3,854
          2011                                                                            1,329              1,288
          2012 and thereafter                                                                 14                 0
          TOTAL ESTIMATED FUTURE LEASE PAYMENTS                               $          13,615 $           17,929



         NOTE 9              WORKERS’ COMPENSATION

     The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to covered federal
     civilian employees injured on the job, employees who have incurred a work-related occupational disease, and
     beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Claims
     incurred for benefits for Library employees under FECA are administered by the Department of Labor (DOL) and
     later billed to the Library.

     The Library is using estimates provided by DOL to report the FECA liability. The Library accrued $1,634,128 and
     $1,757,993 of unbilled or unpaid workers' compensation costs as of September 30, 2007 and 2006, respectively.
     The amount owed to DOL is reported on the Library’s Balance Sheet as an intragovernmental liability. The Library
     also established an estimated unfunded liability payable to employees, for future costs based on historical claims
     rates. The estimated future unfunded liability is $7,478,118 and $7,747,786 as of September 30, 2007 and 2006,
     respectively, and is based on a ten-year projection. This liability is recorded on the Balance Sheet as a liability with
     the public.




42
                                                                    Notes to the Consolidated Financial Statements



   NOTE 10             CONTINGENT LIABILITIES

Several claims relating to employment matters are outstanding against the Library. While management cannot
predict the outcome of the claims and is unable to estimate the potential loss, the maximum loss under each claim
may not exceed $300,000 in compensatory damages, plus any equitable relief (back pay, front pay, attorney's fees).
Under law, any claims settled internally would be paid from the Library's funds and any claims defended in court
would be settled by the Treasury's Claims, Judgments and Relief Act Fund.


   NOTE 11             OTHER LIABILITIES

Other Liabilities as of September 30, 2007 and 2006 are comprised of the following:

                                                                                    (in thousands)
                                                                            FY 2007               FY 2006
     Deferred Credits and Pledges                                       $             1,037   $               751
     Advances from the Public                                                         3,366                 2,915
     Liability for BCA and Deposit Accounts                                              23                   275
     Cancelled Accounts Payable                                                           0                     4
     TOTAL                                                              $             4,426   $             3,945



                       LIABILITIES COVERED AND NOT COVERED
   NOTE 12
                       BY BUDGETARY RESOURCES

                                                                                    (in thousands)
                                                                            FY 2007              FY 2006
     Liabilities Covered by Budgetary Resources                     $           1,227,931 $          1,225,472
     Liabilities Not Covered by Budgetary Resources:
        Intragovernmental                                                           1,634                1,758
        Other                                                                      29,909               30,343
     TOTAL                                                          $           1,259,474 $          1,257,573

Liabilities covered by budgetary resources include accounts payable, advances from others, accrued funded payroll
and benefits, custodial liabilities, deposit account liabilities, advances from the public, and deferred credits.

Liabilities not covered by budgetary resources include accrued unfunded annual and compensatory leave, accrued
unfunded workers compensation, and other unfunded liabilities.




                                                                                                                     43
Notes to the Consolidated Financial Statements


     `
         NOTE 13              PROGRAM COSTS BY BUDGET OBJECT CLASSIFICATION

                                                           (Dollars in Thousands)


          FY 2007 Program Costs by Budget Object Classification

                                                   Depreciation and   Other Program Costs
                                                    Amortization            $50,283
                                                       $6,985                 6%
                              Non-Capitalizable          1%
                                Equipment
                                  $29,076
                                    4%
                          Library Materials
                              $66,185
                                 8%




                                                                                            Personnel Services and
                                                                                                   Benefits
                                                                                                  $423,040
                                                                                                    52%
                        Contractual Services
                             $230,829
                               29%




          FY 2006 Program Costs by Budget Object Classification

                                                  Depreciation and    Other Program Costs
                                                   Amortization             $46,609
                                                     $11,483                  5%
                                                        2%
                            Non-Capitalizable
                              Equipment
                                $35,501
                                  5%

                       Library Materials
                           $57,529
                              8%


                                                                                            Personnel Services and
                                                                                                   Benefits
                                                                                                  $420,770
                        Contractual Services
                                                                                                    56%
                             $183,058
                               24%




     The Library’s collections are classified as “heritage assets.” $19.6M and $12.2M of the amount designated as
     “Library Materials” above represents the fiscal years 2007 and 2006 cost incurred by the Library for “heritage
     assets.”




44
                                                           Notes to the Consolidated Financial Statements



                     PROGRAM COSTS AND EARNED REVENUE
  NOTE 14
                     BY FUNCTIONAL CLASSIFICATION

A. Program Costs by Functional Classification

                                                                       (in thousands)
                                                               FY 2007             FY 2006
    Commerce and Housing Credit                            $         61,453    $          53,381
    Education, Training, Employment, and Social Services            638,143              594,695
    General Government                                              106,802              106,874
    TOTAL                                                  $        806,398    $         754,950


B. Earned Revenue by Functional Classification

                                                                       (in thousands)
                                                               FY 2007              FY 2006
    Commerce and Housing Credit                            $         33,423 $              29,430
    Education, Training, Employment, and Social Services             81,180                72,479
    General Government                                                    16                   22
    TOTAL                                                  $        114,619 $             101,931




                                                                                                      45
Notes to the Consolidated Financial Statements



                        PROGRAM COSTS AND EARNED REVENUE
       NOTE 15
                        FOR REVOLVING FUNDS

                                                                                    (in thousands)
                                                                               FY 2007         FY 2006
                Audio Visual Services: Program Cost                          $         557 $           604
                                       Less: Earned Revenue                          (148)           (172)
                                       Net Program Cost                                409             432


              Cooperative Acquisitions Program Cost                                     3,047          2,391
                            Program: Less: Earned Revenue                             (2,949)        (2,857)
                                       Net Program Cost                                    98          (466)

                Decimal Classification: Program Cost                                     348            285
                                        Less: Earned Revenue                           (293)          (280)
                                        Net Program Cost                                  55              5


           Document Reproduction and Program Cost                                       2,618          3,401
                  Microfilm Services: Less: Earned Revenue                            (1,649)        (2,149)
                                      Net Program Cost                                    969          1,252

                 Gift Shop Operations: Program Cost                                     1,527          1,420
                                       Less: Earned Revenue                           (1,423)        (1,335)
                                       Net Program Cost                                   104             85

            Federal Research Division: Program Cost                                     2,722          2,626
                                       Less: Earned Revenue                           (4,121)        (1,159)
                                       Net Program Cost                               (1,399)          1,467

                           FEDLINK: Program Cost                                       63,409         57,822
                                    Less: Earned Revenue                             (63,675)       (58,147)
                                    Net Program Cost                                    (266)          (325)

                       Special Events: Program Cost                                     2,594          2,054
                                       Less: Earned Revenue                           (1,675)        (1,176)
                                       Net Program Cost                                   919            878

                                        Total Program Cost                             76,822         70,603
                                        Less: Total Earned Revenue                   (75,933)       (67,275)
                                        TOTAL PROGRAM COSTS                  $            889   $      3,328

                                 These programs are discussed further in Note 1.D.




46
                                                                      Notes to the Consolidated Financial Statements



   NOTE 16              EXCHANGE REVENUES

In accordance with Library of Congress Regulation (LCR) 1510, Financial Services, the Library must comply with
any OMB circular or bulletin if it is specifically prescribed in (1) a LCR, (2) a FSD Directive, or (3) if required by
law. OMB Circular No. A-25, User Charges, does not fall into any of these three categories, but may be used by the
Library as a useful point of reference. Circular No. A-25 requires that user charges be sufficient to recover the full
costs to the federal government. Full costs include all direct and indirect costs to any part of the federal government
of providing the good or service, including unreimbursed inter-entity costs.

The Copyright Office’s registration operations have legislatively mandated fees, which do not require the recovery
of the full costs of operations. The Register is authorized to fix fees at a level not more than necessary to recover
reasonable costs incurred for services plus a reasonable adjustment for inflation. Fees should also be fair and
equitable and give due consideration to the objectives of the copyright system.

If the Library were to increase fees and prices to recover full costs to the government for providing these goods and
services, this would in some cases reduce the quantity for goods and services demanded. It is not practicable to
provide reasonable estimates regarding (1) revenue foregone from charging fees that do not recover full costs to the
government and (2) to what extent the quantity of goods and services demanded would change as a result of changes
in prices and fees.




                                                                                                                          47
Notes to the Consolidated Financial Statements



       NOTE 17                CLASSIFICATION OF PROGRAM COSTS


                                                                        (in thousands)
                                                 Intragovernmental               Public
                                                               Non-                     Non-         Total
                    FY 2007                   Production
                                                            Production
                                                                        Production
                                                                                     Production
     National Library                         $   117,045 $          38 $ 316,646 $          103 $     433,832
     Law Library                                    8,216           2        15,707           0         23,925
     Copyright Office                              27,742          23        51,206           2         78,973
     Congressional Research Service                31,216          13        96,459           0        127,688
     National Library Service for the Blind
                                                   10,394           6        40,640           0         51,040
     and Physically Handicapped
     Revolving and Reimbursable Funds               6,461          25        84,454           0         90,940
     TOTAL                                    $   201,074 $        107 $    605,112 $       105 $      806,398




                                                                        (in thousands)
                                                 Intragovernmental               Public
                                                               Non-                     Non-         Total
                    FY 2006                   Production
                                                            Production
                                                                        Production
                                                                                     Production
     National Library                         $   112,282 $          31 $ 278,787 $           39 $     391,139
     Law Library                                    6,866           2        14,802           0         21,670
     Copyright Office                              24,067          25        45,730           0         69,822
     Congressional Research Service                32,910          38        94,563           0        127,511
     National Library Service for the Blind
                                                    9,396           3        49,925           0         59,324
     and Physically Handicapped
     Revolving and Reimbursable Funds               6,873          21        78,590           0         85,484
     TOTAL                                    $   192,394 $        120 $    562,397 $        39 $      754,950




48
                                                                      Notes to the Consolidated Financial Statements



    NOTE 18             EARMARKED FUNDS

SFFAS No. 27, “Identifying and Reporting Earmarked Funds”, effective October 1, 2005, defines “earmarked
funds” as those being financed by specifically identified revenues, often supplemented by other financing sources,
which remain available over time. These specifically identified revenues and financing sources are required by
statue to be used for designated activities, benefits or purposes, and must be accounted for separately from the
Government’s general revenues. The Library’s consolidated financial statements include the results of operations
and financial position of its funds identified as “earmarked funds.” The Library’s earmarked funds are presented
among the following classifications:

•   Collections of fees authorized annually for use by appropriations act for:
    • The Cataloging Distribution Service (CDS), which is the distribution arm for the Library of Congress
        bibliographic data and related technical publications. Pursuant to 2 U.S.C. 150, CDS sells its products to
        libraries throughout the United States and around the world and charges “…a price which will cover their
        costs plus ten per centum added.” CDS earned revenues were $4,564,512 and $3,913,805 for fiscal year
        2007 and 2006, respectively.
    • The Law Library, pursuant to Public Law 105-275, Section 208, is authorized to receive funds from
        participants in and sponsors of an international legal information database (known as the Global Legal
        Information Network (GLIN)) led by the Law Library of Congress. Fees for the development and
        maintenance of GLIN were $7,500 and $10,000 for fiscal year 2007 and 2006, respectively; and
    • The Copyright Office, pursuant to 17 U.S.C. 708(d), is authorized to collect fees for the registration of a
        copyright claim and other copyright recordation and filing activities. Fees collected for these services
        were $29,499,515 and $24,312,946 for fiscal 2007 and 2006, respectively.
    • The Recycling Program, pursuant to Public Law 108-199, Section 607, is authorized to collect funds
        resulting from the sale of materials recovered through the recycling program. Fees collected for the
        program were $21,691 and $34,694 for the fiscal years 2007 and 2006.

•   Public Revolving Funds authorized by 2 U.S.C. 182 for the Cooperative Acquisitions, Audio and Video
    Duplication, Gift Shop Operations, Decimal Classification, Photo Duplication and Special Events (these
    programs are discussed further in Note 1.D. and 15);

•   Gift and TFB Funds authorized by 2 U.S.C. 154-163 (and discussed further in Note 1. E.). Gift and TFB Fund
    cash donations and other realized revenues were $18,077,496 and $13,500,975 for fiscal year 2007 and 2006,
    respectively; and

•   Other earmarked funds not outlined above (combined revenues of $7,678 and $3,784 for fiscal year 2007 and
    2006, respectively), including: The Oliver Wendell Holmes Devise Fund, which is authorized to fund lectures
    known as the “Oliver Wendell Holmes Lectures” and other projects pertaining to Justice Holmes or the
    Supreme Court (Pursuant to Public Law 84-247); The Gertrude M. Hubbard Bequest, which benefits the
    Gardiner Greene Hubbard Collection (Pursuant to 37 Stat. 319-20); and the Foreign Service National Separation
    Liability Trust Fund, which is authorized to provide the separation pay for foreign national employees (Pursuant
    to Section 151 of Public Law 102-138).

The Federal Government does not set aside assets to pay future benefits or other expenditures associated with
earmarked funds. The cash receipts collected from the public for an earmarked fund are deposited into the U.S.
Treasury, which uses the cash for general Government purposes. Treasury securities are issued to the Library as
evidence of its receipts. Treasury securities are an asset to the Library and a liability to the U.S. Treasury. Because
the Library and the U.S. Treasury are both parts of the Government, these assets and liabilities offset each other
from the standpoint of the Government as a whole. For this reason, they do not represent an asset or a liability in the
U.S. Government-wide financial statements. Treasury Securities provide the Library with authority to draw upon
the U.S. Treasury to make future expenditures. When the Library requires redemption of these securities to make
expenditures, the Government finances those expenditures out of accumulated cash balances, by raising taxes or
other receipts, by borrowing from the public or repaying less debt, or by curtailing other expenditures. This is the
same way the Government finances all other expenditures.


                                                                                                                          49
Notes to the Consolidated Financial Statements


     Fiscal data as of, and for the year ended September 30, 2007 is summarized below. Intra-agency transactions have
     not been eliminated in the amounts presented below.

                                                                            (in thousands)
                                           Offsetting        Public                            Other       Total
                                                                             Gift and
                   FY 2007                 Collections      Revolving
                                                                            TFB Funds
                                                                                             Earmarked   Earmarked
                                             Funds           Funds                             Funds       Funds
     Balance Sheet:
      Fund Balance with Treasury           $     22,102 $         7,308 $        13,301 $           909 $      43,620
      Investments in U.S. Treasury
                                                      0                 0        43,780             67         43,847
      Securities
      Other Assets                                2,671           1,190         112,872               0       116,733
     Total Assets                          $     24,773 $         8,498 $       169,953 $           976 $     204,200

      Liabilities                       $         4,882 $         5,194 $         2,401 $            10 $      12,487
      Cumulative Results of Operations           19,891           3,304         167,552             966       191,713
     Total Liabilities and Net Position $        24,773 $         8,498 $       169,953 $           976 $     204,200

     Statement of Net Cost:
       Program Costs                       $     34,691 $        11,670          17,237 $            78 $      63,676
       Less: Earned Revenue                    (34,062)         (9,404)           (621)             (4)      (44,091)
     Net Cost of Operations                $        629 $         2,266 $        16,616 $            74 $      19,585

     Statement of Changes in Net
     Position:
     Net Position, Beginning               $    21,258 $          4,659 $ 153,475 $                881 $     180,273
       Net Cost                                   (629)         (2,266)   (16,616)                 (74)      (19,585)
       Non-Exchange Revenues                          0               0      3,079                    4         3,083
       Other Financing Sources                    (738)             911     27,614                 155         27,942
     Change in Net Position                     (1,367)         (1,355)     14,077                   85        11,440
     Net Position, Ending                  $     19,891 $         3,304 $ 167,552 $                966 $     191,713




50
                                                                       Notes to the Consolidated Financial Statements



Fiscal data as of, and for the year ended September 30, 2006 is summarized below.

                                                                        (in thousands)
                                      Offsetting        Public                             Other       Total
                                                                         Gift and
              FY 2006                 Collections      Revolving
                                                                        TFB Funds
                                                                                         Earmarked   Earmarked
                                        Funds           Funds                              Funds       Funds
Balance Sheet:
 Fund Balance with Treasury           $     26,440 $         7,325 $         13,925 $           815 $     48,505
 Investments in U.S. Treasury
                                                 0                 0         49,351             67        49,418
 Securities
 Other Assets                                  178           1,188           90,963                       92,329
Total Assets                          $     26,618 $         8,513 $        154,239 $           882 $    190,252

 Liabilities                       $         5,360 $         3,854 $            765 $             0 $      9,979
 Cumulative Results of Operations           21,258           4,659          153,474             882      180,273
Total Liabilities and Net Position $        26,618 $         8,513 $        154,239 $           882 $    190,252

Statement of Net Cost:
  Program Costs                       $     26,354 $        11,243 $         10,855 $            39 $     48,491
  Less: Earned Revenue                    (28,237)        (10,878)            (763)             (0)     (39,878)
Net Cost of Operations                $    (1,883) $           365 $         10,092 $            39 $      8,613

Statement of Changes in Net
Position:
Net Position, Beginning               $     17,793 $         4,054 $ 144,267 $                 846 $     166,960
  Net Cost                                   1,883           (365)   (10,092)                  (39)       (8,613)
  Non-Exchange Revenues                          0               0      2,465                     4         2,469
  Other Financing Sources                    1,582             970     16,834                    71        19,457
  Change in Net Position                     3,465             605      9,207                    36        13,313
Net Position, Ending                  $     21,258 $         4,659 $ 153,474 $                 882 $     180,273




                                                                                                                    51
Notes to the Consolidated Financial Statements



        NOTE 19              BUDGETARY RESOURCES

     Budgetary resources are classified as follows:

                                                                        (in thousands)
                                                 FY 2007                                         FY 2006
                                                   Non-                                            Non-
                                   Appropriated                                    Appropriated
                                                Appropriated        Combined                    Appropriated       Combined
                                     Capital                                         Capital
                                                  Capital                                         Capital
     Budgetary Resources:
     Unobligated Balance,
                                   $    104,802 $     1,195,391 $    1,300,193     $     110,432 $    1,111,124 $ 1,221,556
     Brought Forward, October 1
     Recoveries of Prior-Year
                                          5,858          4,892          10,750             3,792         2,277          6,069
     Obligations
     Budget Authority:
      Appropriation                     558,309        308,501         866,810           567,424       290,476        857,900
      Spending Authority from
      Offsetting Collections:
       Earned:
        Collected                           339        132,953         133,292              462        112,280        112,742
        Change in Receivables
                                             69         (1,616)        (1,547)              (10)           (11)          (21)
        from Federal Sources
       Change in Unfilled
       Customer Orders:
        Advances Received                     0          3,426           3,426                           7,765          7,765
        Without Advances from
                                              0         (2,174)        (2,174)                            (492)         (492)
        Federal Sources
      Expenditure Transfers from
                                                                                                             2                2
      Trust Funds
     Subtotal Budget Authority          558,717        441,090         999,807           567,876       410,020        977,896
     Nonexpenditure Transfers,
                                          (594)         (2,700)        (3,294)             (594)            49          (545)
     Net
     Temporarily Not Available
                                              0              0                 0             20            155           175
     Pursuant to Public Law
     Permanently Not Available         (53,079)            (45)       (53,124)           (15,056)          (95)    (15,151)
     Total Budgetary Resources     $   615,704 $      1,638,628 $    2,254,332     $      666,470 $   1,523,530 $ 2,190,000

     Status of Budgetary
     Resources:
     Obligations Incurred:
       Direct                      $    565,579 $      317,543 $       883,122     $     561,668 $     210,088 $      771,756
       Reimbursable                           0        133,046         133,046                         118,051        118,051
     Total Obligations Incurred         565,579        450,589       1,016,168           561,688       328,139        889,807
     Unobligated Balance
     (Exempt from                        38,767       1,187,685      1,226,452            95,649      1,195,340     1,290,989
     Apportionment)
     Unobligated Balance – Not
                                         11,358            354          11,712             9,153            51          9,204
     Available
     Total Status of Budgetary
                                   $    615,704 $     1,638,628 $    2,254,332     $     666,470 $    1,523,530 $ 2,190,000
     Resources




52
                                                                       Notes to the Consolidated Financial Statements


                                                                    (in thousands)
                                              FY 2007                                      FY 2006
                                                Non-                                         Non-
                                Appropriated                                 Appropriated
                                             Appropriated      Combined                   Appropriated             Combined
                                  Capital                                      Capital
                                               Capital                                      Capital

Change in Obligated
Balance:
Unpaid Obligated Balance,
Net, Brought Forward,
October 1:
 Unpaid Obligations,
                                $    185,146 $     67,949 $       253,095    $       171,707 $         59,643 $       231,350
 Brought Forward
 Less: Uncollected
 Customer Payments,                     (154)     (14,308)       (14,462)              (164)          (14,811)        (14,975)
 Brought Forward
Total Unpaid Obligation
                                     184,992       53,641         238,633            171,543           44,832         216,375
Balance, Net
 Obligations Incurred, net            565,579      450,589       1,016,168         561,668             328,139        889,807
 Less: Gross Outlays                (575,879)    (442,219)     (1,018,098)       (544,437)           (317,556)      (861,993)
 Less: Recoveries of Prior-
                                      (5,858)      (4,892)       (10,750)            (3,792)           (2,277)         (6,069)
 Year Unpaid Obligations
 Change in Uncollected
 Customer Payments from                  (69)        3,790          3,721                11               503               513
 Federal Sources
Total Unpaid Obligated
Balance, Net:
 Unpaid Obligations                  168,988       71,427         240,415            185,146           67,949         253,095
 Less: Uncollected
 Customer Payments from                 (223)     (10,518)       (10,741)              (154)          (14,308)        (14,462)
 Federal Sources
Total Unpaid Obligated
Balance, Net, End of            $    168,765 $     60,909 $       229,674    $       184,992 $         53,641 $       238,633
Period

Net Outlays:
 Gross Outlays                  $    575,879 $     442,219 $    1,018,098    $       544,437 $         317,556 $      861,993
 Less: Offsetting Collections          (339)     (136,379)      (136,718)              (463)         (120,046)      (120,509)
 Less: Distributed Offsetting
                                           0      (58,253)       (58,253)                             (45,942)        (45,942)
 Receipts
Total Net Outlays               $    575,540 $    247,587 $       823,127    $       543,974 $        151,568 $       695,542

For TFB funds, approximately $11.4 and $11.0 million of unobligated authority for fiscal years 2007 and 2006,
respectively, at the donor’s request, is restricted from being spent on program costs (income from investing
restricted donations under the Library’s Total Return Policy can be spent on program costs). These amounts are
invested either in the permanent loan or in Treasury securities. An additional $77.4 and $77.4 million of restricted
authority has been obligated and expended to invest in non-Treasury securities for the fiscal years 2007 and 2006,
respectively.

Undelivered orders, end of period:
                                                                                        (in thousands)
                                                                             FY 2007                    FY 2006
     Paid                                                              $                1,403    $                  9,189
     Unpaid                                                                          179,691                     190,846
     TOTAL                                                             $             181,094     $               200,035



                                                                                                                                  53
Notes to the Consolidated Financial Statements



                          RECONCILIATION OF NET COST OF
       NOTE 20
                          OPERATIONS TO BUDGET

                                                                                                  (in thousands)
                                                                                              FY 2007        FY 2006
     RESOURCES USED TO FINANCE ACTIVITIES
       Budgetary Resources Obligated:
          Obligations Incurred                                                            $    1,016,168 $       889,807
          Less: Spending Authority from Offsetting Collections and Recoveries                  (143,747)       (126,064)
          Obligations Net of Offsetting Collections and Recoveries                               872,421         763,743
          Less: Distributed Offsetting Receipts                                                 (58,253)        (45,942)
          Net Obligations                                                                        814,168         717,801
       Other Resources:
          Donations of Propery and Services                                                       40,861             16,400
          Imputed Financing from Costs Absorbed by Others                                         78,436             72,873
          Exchange Revenue not in the Budget                                                         182              (112)
          Non-exchange Revenue not in the Budget                                                 (1,375)              (569)
          Trust/Special Fund Exchange Revenue Receipts                                           (4,541)            (5,830)
          Other Resources (+/-)                                                                  13,597               6,316
       TOTAL RESOURCES USED TO FINANCE ACTIVITIES                                               941,328            806,879

     RESOURCES USED TO FINANCE ITEMS NOT PART OF NET COST OF OPERATIONS
       Change in Budgetary Resources Obligated for Goods, Services, and Benefits
                                                                                                 16,666            (3,097)
       Ordered but Not Yet Provided (+/-)
       Resources that Finance the Acquisition of Assets                                         (33,996)           (9,843)
       Budgetary Offsetting Receipts that do not Affect Net Cost of Operations                    58,253            45,942
       Other Resources or Adjustments to Net Obligated Resources that do not Affect Net
                                                                                               (284,804)       (192,679)
       Cost of Operations (+/-)
       TOTAL RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF
                                                                                               (243,881)       (159,677)
       OPERATIONS

     TOTAL RESOURCES USED TO FINANCE THE NET COST OF OPERATIONS                                 697,447            647,202

     COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT REQUIRE OR
     GENERATE RESOURCES IN THE CURRENT PERIOD
        Components Requiring or Generating Resources in Future Periods:
           Increase in Annual Leave Liability and Actuarial Liability                              (554)                88
           Other                                                                                     (4)                 5
        Total Components Requiring or Generating Resources in Future Periods                       (558)                93
        Components not Requiring or Generating Resources:
           Depreciation and Amortization                                                           6,985            11,483
           Revaluation of Assets or Liabilities                                                 (12,104)           (5,751)
           Bad Debt from Public Vendor Overpayment Receivables                                        (0)               (1)
           Other Costs not Requiring or Generating Budgetary Resources (+/-)                            9               (7)
        Total Components not Requiring or Generating Resources                                   (5,110)             5,724
     TOTAL COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT REQUIRE
                                                                                                 (5,668)             5,817
     OR GENERATE RESOURCES IN THE CURRENT PERIOD


     NET COST OF OPERATIONS                                                               $     691,779 $          653,019




54
                                                                                                      Management Report


                              THE LIBRARY OF CONGRESS
                                            Management Report
                                        Fiscal Year Ended September 30, 2007


                               Assessment of Condition of Heritage Assets
The Library has the world's largest library collection, including research materials in over 450 languages and various
media. Providing access to this collection inevitably puts it at risk and could impair the Library's ability to serve the
Congress and other users in the future. However, the collections exist to be used, and management accepts the
responsibility of mitigating risk to the collections at the same time it fulfills its mission of service to the Congress
and the nation. Therefore, the Library has chosen to balance the usage of the collection with the long-term
preservation requirements of the collections.

As of September 30, 2007, the collections were determined to be in a useable condition for fulfilling its service
mission. During fiscal 2007, only a very small percentage of materials were removed from the collection because of
damage caused by use and/or deterioration of the medium. The ultimate useful life of a library item varies by its
medium (e.g., book, film, tape, manuscript, disk), and the manner in which it is used and stored.

The Library employs a variety of methods to prolong the useful life of its deteriorating materials, including:

    •    The establishment of adequate environmental storage conditions
    •    The usage of binding or other methods to house items
    •    The mass deacidification of print materials
    •    The use of surrogates in serving the collections to the public
    •    The reformatting of collections to other media

The Library has inadequate temperature and humidity control in some collections storage areas; inadequate space for
appropriate storage of collections materials; insufficient space for reformatting the acetate negative collection; and
insufficient funds for reformatting. These conditions cannot be fully addressed with current funds and physical plant.
The move of collections into the storage facility at Fort Meade, Maryland, is serving to remedy many of these
difficulties for books and paper-based materials, and the acquisition of the Packard Campus for Audio-Visual
Conservation in Culpeper, Virginia, is a major step in the preservation of film and other media.



                        Management Assertion on Controls for the Collections
A major mission of the Library of Congress is to acquire, preserve, and make maximally accessible the intellectual
and information heritage of the United States and, to the degree desirable, the world. The risks to its collections are:
not acquiring and organizing materials that are critical to the continued development of the research collections that
meet the needs of the Congress and the research community; not preserving the collections from the physical
degradation inherent in each of the various media the Library holds and from deterioration through use; and the theft,
mutilation, or accidental loss of the items in the collection.

Library management is responsible for establishing and maintaining the internal control structure for the collections.
We have assessed the effectiveness of the internal control structure over safeguarding of these Heritage Assets
(collections) against unauthorized acquisition, use, or disposition, compliance with laws and regulations, and
financial reporting based upon established control criteria. Those control criteria include: bibliographical controls,
inventory controls, preservation controls, and physical security controls. Specific controls over items depend upon
the individual format, demand for and conditions of use, and the value and risk assessment for that item.

Providing access to our collections inevitably puts them at risk. However, the collections exist to be used, and
management accepts the responsibility of mitigating risk to the collections at the same time it fulfills its mission of
service to the Congress and the nation. While we have aggressively addressed deficiencies in bibliographic,


                                                                                                                            55
67
